<html>
<title> - OVERSIGHT HEARING ON ``THE IMPACT OF CATASTROPHIC FOREST FIRES AND LITIGATION ON PEOPLE AND ENDANGERED SPECIES: TIME FOR RATIONAL MANAGEMENT OF OUR NATION'S FORESTS.''</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]





 THE IMPACT OF CATASTROPHIC FOREST FIRES AND LITIGATION ON PEOPLE AND 
   ENDANGERED SPECIES: TIME FOR RATIONAL MANAGEMENT OF OUR NATION'S 
                                FORESTS

=======================================================================

                           OVERSIGHT HEARING

                               before the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                         Tuesday, July 24, 2012

                               __________

                           Serial No. 112-122

                               __________

       Printed for the use of the Committee on Natural Resources





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

75-279 PDF                WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001









                     COMMITTEE ON NATURAL RESOURCES

                       DOC HASTINGS, WA, Chairman
            EDWARD J. MARKEY, MA, Ranking Democratic Member

Don Young, AK                        Dale E. Kildee, MI
John J. Duncan, Jr., TN              Peter A. DeFazio, OR
Louie Gohmert, TX                    Eni F.H. Faleomavaega, AS
Rob Bishop, UT                       Frank Pallone, Jr., NJ
Doug Lamborn, CO                     Grace F. Napolitano, CA
Robert J. Wittman, VA                Rush D. Holt, NJ
Paul C. Broun, GA                    Raul M. Grijalva, AZ
John Fleming, LA                     Madeleine Z. Bordallo, GU
Mike Coffman, CO                     Jim Costa, CA
Tom McClintock, CA                   Dan Boren, OK
Glenn Thompson, PA                   Gregorio Kilili Camacho Sablan, 
Jeff Denham, CA                          CNMI
Dan Benishek, MI                     Martin Heinrich, NM
David Rivera, FL                     Ben Ray Lujan, NM
Jeff Duncan, SC                      Betty Sutton, OH
Scott R. Tipton, CO                  Niki Tsongas, MA
Paul A. Gosar, AZ                    Pedro R. Pierluisi, PR
Raul R. Labrador, ID                 John Garamendi, CA
Kristi L. Noem, SD                   Colleen W. Hanabusa, HI
Steve Southerland II, FL             Paul Tonko, NY
Bill Flores, TX                      Vacancy
Andy Harris, MD
Jeffrey M. Landry, LA
Jon Runyan, NJ
Bill Johnson, OH
Mark Amodei, NV

                       Todd Young, Chief of Staff
                      Lisa Pittman, Chief Counsel
               Jeffrey Duncan, Democratic Staff Director
                David Watkins, Democratic Chief Counsel
                                 ------                                












                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Tuesday, July 24, 2012...........................     1

Statement of Members:
    Hastings, Hon. Doc, a Representative in Congress from the 
      State of Washington........................................     1
        Prepared statement of....................................     3
    Markey, Hon. Edward J., a Representative in Congress from the 
      Commonwealth of Massachusetts..............................     4
        Prepared statement of....................................     5

Statement of Witnesses:
    Berry, Alison, Energy and Economics Specialist, The Sonoran 
      Institute, Bozeman, Montana................................    15
        Prepared statement of....................................    17
    Crapser, Bill, Chairman-Elect, Council of Western State 
      Foresters; Wyoming State Forester; and Member of the 
      National Association of State Foresters, Cheyenne, Wyoming.    11
        Prepared statement of....................................    12
    Dice, Rick, President, National Wildfire Suppression 
      Association, and CEO of PatRick Environmental, Redmond, 
      Oregon.....................................................    19
        Prepared statement of....................................    20
    Lopez, Jose Varela, President-Elect, New Mexico Cattle 
      Growers' Association, Albuquerque, New Mexico..............     7
        Prepared statement of....................................     8

 
  OVERSIGHT HEARING ON ``THE IMPACT OF CATASTROPHIC FOREST FIRES AND 
    LITIGATION ON PEOPLE AND ENDANGERED SPECIES: TIME FOR RATIONAL 
                 MANAGEMENT OF OUR NATION'S FORESTS.''

                              ----------                              


                         Tuesday, July 24, 2012

                     U.S. House of Representatives

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Committee met, pursuant to notice, at 10:07 a.m., in 
Room 1324, Longworth House Office Building, Hon. Doc Hastings 
[Chairman of the Committee] presiding.
    Present: Representatives Hastings, Duncan of Tennessee, 
Lamborn, McClintock, Thompson, Benishek, Duncan of South 
Carolina, Tipton, Gosar, Noem, Runyan; Markey, DeFazio, 
Napolitano, Holt, Grijalva, Heinrich, Lujan, and Tonko.
    The Chairman. The Committee will come to order. The 
Chairman notes the presence of a quorum, which, under Rule 
3(e), is 2 Members. The Committee on Natural Resources is 
meeting today to hear testimony on an oversight hearing on 
``The Impact of Catastrophic Forest Fires and Litigation on 
People and Endangered Species: Time for Rational Management of 
Our Nation's Forests.''
    Under Rule 4(f), opening statements are limited to the 
Chairman and Ranking Member of the Committee. However, if any 
Member wishes to have a statement inserted into the record, 
have it to the clerk before the end of business today. And, 
without objection, that will be so ordered.
    I will now recognize myself for 5 minutes for the opening 
statement.

    STATEMENT OF THE HON. DOC HASTINGS, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF WASHINGTON

    The Chairman. This hearing focuses on the devastating 
impacts of catastrophic wildfires on people and species, and 
how Endangered Species Act litigation blocks activities to help 
prevent or fight forest fires. Each year wildfires damage or 
destroy an average of 3.7 million acres across the United 
States, mostly on Federal forest and other public lands, 
including millions of acres of land that the Federal Government 
has mandated as critical for endangered species.
    As we hold this hearing, 28 major fires are burning in 12 
States, adding to 3.9 million acres that have already burned 
this year. These fires destroy lives, homes, farms, and 
families' economic security. And they destroy old growth 
habitat and endangered species. The soaring annual costs of 
managing wildfires runs over $3 billion. As a result, fewer 
resources are available for forest management to improve forest 
health, create jobs, and provide funding for rural schools and 
protect species habitat. Decades of poor management of millions 
of acres of Federal forest and rangelands have made the 
situation worse.
    Last week, the Associated Chief of the Forest Service 
testified that 65 million acres of Forest Service lands are at 
high risk of wildfire. That is 65 million acres. Yet last year, 
the Service treated just 4 million acres. That is only 2 
percent. The lack of proper Federal land management imperils 
neighboring State, local, Tribal, or private lands that are 
often better managed through thinning, timber sales, and other 
activities.
    Why won't the Federal Government more responsibly manage 
for us? In large part, the answer is in the Endangered Species 
Act, and the way it is interpreted and the way it and other 
laws are being abused by environmental groups through endless 
lawsuits to block local, State, and Federal timber fuels 
reduction and thinning projects.
    Information provided by the Justice Department to this 
Committee reveals that at least 59 environmental lawsuits 
against the Forest Service and BLM have been filed or were open 
during just the past 4 years. These suits have stopped most 
human or economic activity connected with forests, including 
eliminating thousands of jobs. They have also obstructed 
projects to improve species habitat on thousands of acres 
decimated by fires, by removing dead or diseased trees, 
maintaining access roads to fire areas, and removing ash and 
sediment.
    Ironically, some of these lawsuits aimed at ``saving'' 
forests, rather than having their actual destruction, where 
once old growth, critical habitat forests now resemble the 
moon's surface after fires.
    More troubling is that these lawsuits, and the threat of 
even more, have led to instances where Federal agencies and 
private firefighting contractors sometimes are unclear how to 
implement ESA rules amidst fighting forest fires. Over-cautious 
behavior ensues and fighting out-of-control wildfires, already 
a dangerous occupation, is made even more difficult.
    Some believe the real cause of catastrophic wildfires is 
global warming, that megafires are natural and should run their 
course, and that fires and drought won't ease unless carbon 
emissions in the earth's atmosphere are reduced. I note these 
are usually the same individuals who oppose any efforts to 
reduce the immense carbon building up in our forests through 
management, and who often support ESA lawsuits to block efforts 
to mitigate environmental damage caused by these fires.
    Our communities and endangered species deserve practical 
solutions now to address and reduce the risks of megafires. We 
owe it to them to improve Federal forest health and species 
habitat and ensure that the Endangered Species Act works to 
protect species and people before and after these devastating 
fires occur.
    That's what this hearing is about today, and I look forward 
to hearing from the witnesses.
    [The prepared statement of Mr. Hastings follows:]

          Statement of The Honorable Doc Hastings, Chairman, 
                     Committee on Natural Resources

    This hearing focuses on the devastating impacts of catastrophic 
wildfires--on people and species and how Endangered Species Act 
litigation blocks activities to help prevent or fight fires.
    Each year, wildfires damage or destroy an average of 3.7 million 
acres across the United States, mostly on federal forests and other 
public lands, including millions of acres of land that the federal 
government has mandated as critical for endangered species. As we hold 
this hearing, 28 major fires are burning in twelve states, adding to 
3.9 million acres that have already burned this year.
    These fires destroy lives, homes, farms, and families' economic 
security--and they destroy old growth habitat and endangered species. 
The soaring annual cost of managing wildfires runs over $3 billion. As 
a result, fewer resources are available for forest management to 
improve forest health, create jobs, provide funding for rural schools, 
and protect species habitat.
    Decades of poor management of millions of acres of federal forest 
and range lands has made the situation worse. Last week, the Associate 
Chief of the Forest Service testified that 65 million acres of Forest 
Service lands are at ``high risk of wildfire,'' yet, last year, the 
Service treated just 4 million acres--that's only 6 percent. The lack 
of proper federal land management imperils neighboring state, local, 
tribal or private lands that are often better managed through thinning, 
timber sales and other activities.
    Why won't the federal government more responsibly manage forests? 
In large part, the answer is the Endangered Species Act (ESA), the way 
it is interpreted, and the way it and other laws are being abused by 
environmental groups through endless lawsuits to block local, state and 
federal timber fuels reduction and thinning projects.
    Information provided by the Justice Department to this Committee 
reveals that at least 59 environmental lawsuits against the Forest 
Service and BLM have been filed or are open during just the past four 
years. These suits have stopped most human or economic activity 
connected with forests, including eliminating thousands of jobs. They 
have also obstructed projects to improve species habitat on thousands 
of acres decimated by fires, by removing dead or diseased trees, 
maintaining access roads to fire areas, and removing ash and sediment. 
Ironically, some of these lawsuits aimed at ``saving'' forests have 
resulted in their actual destruction, where once old-growth, critical 
habitat forests now resemble the moon's surface after fires.
    More troubling is that these lawsuits, and the threat of even more, 
have led to instances where federal agencies and private firefighting 
contractors sometimes are unclear how to implement ESA rules amidst 
fighting wildfires. Overcautious behavior ensues and fighting out-of-
control wildfires, already a dangerous occupation, is made even more 
difficult.
    Some believe the real cause of catastrophic wildfires is global 
warming, that megafires are natural and should run their course, and 
that fires and drought won't ease unless carbon emissions in the 
Earth's atmosphere are reduced. I note these are usually the same 
individuals who oppose any efforts to reduce the immense carbon 
building up in our forests through management and who often support ESA 
lawsuits to block efforts to mitigate environmental damage caused by 
these fires.
    Our communities and endangered species deserve practical solutions 
now to address and reduce the risks of megafires. We owe it to them to 
improve federal forest health and species habitat and ensure that the 
Endangered Species Act works to protect species and people before and 
after these devastating fires occur. That's what this hearing is about 
today.
    I look forward to hearing from the witnesses here today.
                                 ______
                                 
    The Chairman. But before I do that, I will recognize the 
distinguished Ranking Member, Mr. Markey, for 5 minutes.

  STATEMENT OF THE HON. EDWARD J. MARKEY, A REPRESENTATIVE IN 
        CONGRESS FROM THE COMMONWEALTH OF MASSACHUSETTS

    Mr. Markey. Thank you, Mr. Chairman. This summer, tens of 
thousands of people have had to evacuate because of wildfires. 
Hundreds of homes have been destroyed. Lives have been lost. As 
this fire season has heated up, so has the rhetoric from the 
Majority. Environmental laws, land management agencies, 
litigation, endangered species, and even immigrants share the 
Republicans' blame for this year's devastating wildfires.
    An analysis of the Forest Service and the Bureau of Land 
Management projects to reduce the risk of fires reveals that 
these Republican accusations are just not--are just a smoke 
screen.
    Today I am releasing a report that torches the myth that 
citizens engaging in democracy are turning our forests into 
tinder boxes. Using the same approach taken by the Government 
Accountability Office in 2010, the Democratic staff looked at 
the over 8,000 projects identified by the Forest Service and 
Bureau of Land Management for hazardous fuel reduction from 
2009 through 2011. The report finds that 95 percent of all 
projects subject to review move forward without pause. In 
total, only 27 projects, or .3 percent--\3/10\ of 1 percent--
were canceled because of concerns raised during the appeals 
process.
    There is an even smaller impact of appeals related to 
endangered species concerns. Of the 27 projects that were 
canceled in the last 2 years, only 3 were due to concerns over 
imperiled wildlife. In comparison, target shooters in Utah 
alone have already caused 21 fires this summer in the United 
States.
    So, if endangered species aren't the reason for 
catastrophic wildfires, what is? One immediate answer is that 
funding to reduce the risk of fire is at the lowest level since 
2000. But no amount of money will be sufficient, unless we 
acknowledge the link between climate change and wildfires. The 
Under Secretary of Agriculture, Harris Sherman, has admitted 
this link exists. The Chief of the Forest Service has admitted 
this link exists. Scientists around the world have proven this 
link exists.
    We are approaching dustbowl-like drought conditions. Fires 
are becoming larger and more severe. And the root cause of this 
push to the extremes is climate change. Last week, a massive 
chunk of ice, twice the size of Manhattan, broke off of the 
Peterman Glacier in Greenland. And scientists point to warming 
ocean temperatures as the culprit, in addition to a 4.7 degree 
increase in temperature in the air up in that area, as well, 
since 1987.
    I have suggested that we rename it Denier Island, where 
those who question the science behind global warming can spend 
the summer cooling off and escaping the heat waves, the 
drought, and the wildfires here, in the United States.
    Today we will hear a lot of talk about the need for action 
on wildfires. When given the opportunity in June to provide 
State and Federal agencies more tools to thin forests, all but 
two Republicans voted against an amendment on the House Floor 
that resulted in more thinning. I voted for that measure. I 
have also put forward legislation with my colleagues, 
Representative Grijalva, Napolitano, Lujan, and Polis, that 
recognizes that we have a problem in our forests.
    Our bill allows the Forest Service and the Bureau of Land 
Management the flexibility to do thinning in areas impacted by 
insects and disease, without waiving environmental laws and 
forcing Federal agencies to make decisions on projects in 
unrealistic time frames.
    Our bill also recognizes our constrained fiscal 
environment. It gives the Federal agencies additional 
authorities they desire to stretch the Federal dollars further, 
and allow them to partner with States to reduce the cost of 
projects involving Federal and State lands.
    It is time for rational management of our Nation's forests. 
We need to provide the resources to reduce the risk of fire. We 
need to give agencies the authorities, as our legislation does, 
to work smarter and not harder.
    And finally, we need to reduce the impact of climate change 
on our forests.
    Thank you, and I yield back the balance of my time.
    [The prepared statement of Mr. Markey follows:]

     Statement of The Honorable Edward J. Markey, Ranking Member, 
                     Committee on Natural Resources

    Thank you, Chairman Hastings.
    This summer tens of thousands of people have had to evacuate 
because of wildfires. Hundreds of homes have been destroyed. Lives have 
been lost.
    As this fire season has heated up so has the rhetoric from the 
Majority. Environmental laws, land management agencies, litigation, 
endangered species, and even immigrants share the Republican's blame 
for this year's devastating wildfires.
    An analysis of the Forest Service and Bureau of Land Management 
projects to reduce the risk of fires reveals that these Republican 
accusations are just a smokescreen.
    Today, I am releasing a report that torches the myth that citizens 
engaging in democracy are turning our forests into tinder boxes.
    Using the same approach taken by the Government Accountability 
Office in 2010, the Democratic staff looked at the over 8000 projects 
identified by the Forest Service and Bureau of Land Management for 
hazardous fuel reduction from 2009 through 2011. The report finds that 
95% of all projects subject to review moved forward without pause. In 
total, only 27 projects, or 0.3%, were cancelled because of concerns 
raised during the appeals process.
    There is an even smaller impact of appeals related to endangered 
species concerns. Of the 27 projects that were cancelled in the last 
two years, only 3 were due to concerns over imperiled wildlife.
    In comparison, target shooters in Utah alone have already caused 21 
fires this summer.
    So if endangered species aren't the reason for catastrophic 
wildfires, what is?
    One immediate answer is that funding to reduce the risk of fire is 
at the lowest level since 2000.
    But no amount of money will be sufficient, unless we acknowledge 
the link between climate change and wildfires.
    The Undersecretary of Agriculture, Harris Sherman, has admitted 
this link exists.
    The Chief of the Forest Service has admitted this link exists
    Scientists around the world have proven this link exists.
    We are approaching dust-bowl-like drought conditions. Fires are 
becoming larger and more severe. And the root cause of this push to the 
extremes is climate change.
    Last week, a massive chunk of ice twice the size of Manhattan broke 
off of the Petermann Glacier in Greenland, and scientists point to 
warming ocean temperatures as the culprit. I have suggested that we 
rename it Denier Island, where those who question the science behind 
global warming can spend the summer cooling off and escaping the heat 
waves, the drought and the wildfires here in the United States.
    Today we will hear a lot of talk about the need for action on 
wildfires. When given the opportunity in June to provide state and 
federal agencies more tools to thin forests, all but two Republicans 
voted against an amendment on the House floor that would have resulted 
in more thinning.
    I voted for that measure. I have also put forward legislation with 
my colleagues Representatives Grijalva, Napolitano, Lujan, Costa and 
Polis that recognizes we have a problem in our forests.
    Our bill allows the Forest Service and the Bureau of Land 
Management the flexibility to do thinning in areas impacted by insects 
and disease without waiving environmental laws and forcing federal 
agencies to make decisions on projects in unrealistic timeframes.
    Our bill also recognizes our constrained fiscal environment. It 
gives the federal agencies additional authorities they desire to 
stretch the federal dollars further and allows them to partner with 
states to reduce the cost of projects involving federal and state 
lands.
    It is time for rational management of our nation's forest. We need 
to provide the resources to reduce the risk of fire. We need to give 
agencies the authorities, as our legislation does, to work smarter, not 
harder. Finally, we need to reduce the impact of climate change on our 
forests.
    Thank you. I yield back my time.
                                 ______
                                 
    The Chairman. I thank the gentleman for his statement. And 
I am pleased to welcome our panel here. We have Mr. Rick Dice, 
who is the President of the National Wildlife Suppression 
Association, from Redmond, Oregon. We have Ms. Alison Berry, 
Energy and Economics Specialist, the Sonoran Institute, from 
Bozeman, Montana. And we have Mr. Bill Crapser, who is 
Chairman-Elect of the Council of Western State Foresters, from 
Cheyenne, Wyoming. And I recognize the gentleman from New 
Mexico for an introduction of somebody from his State. The 
gentleman from New Mexico is recognized.
    Mr. Lujan. Mr. Chairman, thank you so very much. And it is 
my pleasure to introduce Jose J. Varela Lopez, a local cattle 
producer from my congressional district. Mr. Varela Lopez is a 
native New Mexican from the historic village of La Cieneguilla 
near Santa Fe. He is currently serving as the President-Elect 
of the New Mexico Cattle Growers Association, where he is also 
a member of the Board of Directors, and Chairman of the 
Association's legislative committee, and has previously served 
as the Northwest Region Vice President of the New Mexico Cattle 
Grower's Association.
    In addition to serving on the Association, Jose is active 
in several other natural resource-based entities in New Mexico. 
On the governmental level, he serves on the local soil and 
water conservation district, where he is currently serving as 
Chairman. He is also a member of the Northern New Mexico 
Stockman's Association Board of Directors, and the New Mexico 
Federal Lands Council Board of Directors. Jose also served on 
the Santa Fe County Commission back home.
    Mr. Chairman, it is an honor to have friends from New 
Mexico here with us, as well. Jose, we welcome you and thank 
you for being here to testify.
    And with that, Mr. Chairman, I yield back.
    The Chairman. I thank the gentleman for his introduction. 
And for--if you are not familiar with how the hearing goes, 
your statement that you were asked to submit will appear in the 
record in its entirety. But you have 5 minutes. And I would 
like you to confine your oral statements to 5 minutes.
    The lights in front of you--obviously, the timer there is 5 
minutes. And when the green light is on you are doing very 
well. When the yellow light comes on it means there is 1 minute 
left. And when the red light comes on it means that the 5 
minutes have expired. I would ask you certainly to wrap it up.
    So, Mr. Lopez, we will begin with you. And you are 
recognized for 5 minutes.

  STATEMENT OF JOSE VARELA LOPEZ, PRESIDENT-ELECT, NEW MEXICO 
      CATTLE GROWERS' ASSOCIATION, ALBUQUERQUE, NEW MEXICO

    Mr. Lopez. Thank you, Mr. Chairman, Ranking Member Markey, 
and members of the Committee. Thank you for allowing me to be 
here today. I appear as President-Elect of the New Mexico 
Cattle Grower's Association, with members in all 33 counties 
and 14 other States. Our association, almost as old as the 
State of New Mexico, has been dedicated since its inception to 
maintain a favorable economic climate by working toward 
solutions that advance and protect our industry and our 
investments within the free enterprise system, which is one of 
the great hallmarks of our Nation.
    During my lifetime and those of my forefathers, we in the 
West have learned to live and work with Mother Nature, which 
includes managing our lands, forests, and animals through the 
cyclical droughts that have been part of the earth's evolution 
since the beginning of time. The most recent drought appears to 
have hastened the megafires that continue to alter the 
landscape with increasing frequency across the Western United 
States, and thus the need to confront the reality that each 
year of tepid, court-driven forest management that passes is 
another year that we destroy millions of acres of forest, grass 
lands, homes, livelihoods, animals, both domestic and wild, as 
well as invaluable watersheds that communities, urban and rural 
alike, depend on.
    We all know--or should know--that the expense incurred to 
mitigate the immediate damage caused by wildfires that decimate 
our fuel-laden forests is many times more expensive than 
prudent, diligent, forest management ever could be. 
Additionally, proper and proactive forest management also 
provides jobs to rural communities, produces timber for homes 
and businesses, biomass for renewable energy, protect homes and 
other infrastructure, improves habitat for endangered species 
and other wildlife, increase forage production for livestock, 
and most importantly, maintains or improves intact watersheds 
to deliver much-needed water to our irrigated fields, 
municipalities, and waterways.
    In New Mexico, all of the negative impacts related to 
catastrophic wildfires are coming to pass, and just in the last 
2 years. The culmination of a century of inappropriate fire 
suppression, decreasing timber harvest, and decades of 
environmental litigation have rendered forest management to be 
both costly and complex, exacerbating the unhealthy conditions 
of our forest. The fact of the matter is that you can't 
preserve a forest. You have to manage it. To do otherwise is to 
risk the loss of the multiple benefits that it provides.
    Couple the Whitewater/Baldy fire with last year's 500,000-
plus acre Wallow fire in New Mexico and Arizona, and much of 
the Mexican Wolf, Mexican Spotted Owl, Spikedace, and Loach 
Minnow habitat have been destroyed. It is impossible to ever 
know how much wildlife was lost.
    At the inception of the United States Forest Service, and 
as outlined in the 1897 Organic Act passed by Congress, 3 
management goals were listed for the newly created Forest 
Reserves: to improve and protect the public forests, to secure 
favorable water flows, and to provide a continued supply of 
timber under regulation. I think it would be fair to say that, 
instead of reaching those goals, we are moving ever further 
away from achieving any of the three, mainly due to court and 
self-imposed constraints.
    With over 25,000 fire starts this year alone in the West, 
destroying millions of acres, thousands of animals, including 
threatened and endangered species, hundreds of homes, 
businesses, and even human lives, it is imperative that we 
remove the shackles of often conflicting policies, rules, and 
regulations born of incessant litigation over time, and to 
resolve to streamline the required National Environmental 
Policy Act analyses that prevent the proactive management of 
our forests.
    We need to improve access for the removal of the fuels that 
are choking our forests and depleting our water supplies. We 
need to increase the number of landscape projects of a million 
acres or more to accelerate treatments, creating efficiencies 
of scale, and decreased costs. We need to allow management 
flexibility in the Wildland/Urban Interface communities to 
quickly reduce the threat of catastrophic fire. We need to 
provide incentives to create the economic engine that will 
utilize the small diameter fuels we need to remove from the 
forest for renewable energy purposes and other large-scale 
utilization. We need to accomplish these goals, we need to 
train the workforce that would be required to make our 
unhealthy forests resilient again.
    Instead, our government is funding the destruction of our 
landscape, our economies, and our families through litigation. 
There is no doubt that the Endangered Species Act and the 
citizen lawsuit provision were well intended. However, I doubt 
the framers of the Act 40 years ago could have contemplated 
what was to come.
    While funding will always be an issue in adequately 
addressing the enormous amount of deferred maintenance in our 
forest, utilizing the full funding of the land and water 
conservation fund to fully manage our Nation's forests, as 
opposed to using the fund to purchase more lands that will add 
to the management backlog would certainly be a step in the 
proper direction.
    In closing, I want to reiterate that we cannot preserve our 
forests; they must be managed. The trees and grasses produced 
in our forests are renewable resources, if they are managed. 
Otherwise, they just burn.
    Thank you for your time.
    [The prepared statement of Mr. Lopez follows:]

          Statement of Jose J. Varela Lopez, President-Elect, 
                 New Mexico Cattle Growers' Association

    Chairman Hastings, ranking member Markey and members of the 
Committee, thank you for allowing me to come before you today. My name 
is Jose J. Varela Lopez and I am from the historic village of La 
Cieneguilla, near Santa Fe, New Mexico where my family settled nearly 
400 years ago and began cattle ranching. I appear before you as 
President-Elect of the New Mexico Cattle Growers' Association (NMCGA) 
with members in all of the state's 33 counties and 14 other states. Our 
association, almost as old as the state, has been dedicated since its 
inception to maintain a favorable economic climate by working towards 
solutions that advance and protect our industry and our investments 
within the free enterprise system that is one of the hallmarks of our 
great nation. Over the last 15 years we have been forced to defend our 
rights by entering into the arena of litigation.
    In addition to my work with the NMCGA, I am active in several other 
natural resource based entities in New Mexico. On the governmental 
level, I am an elected official with my local Soil and Water 
Conservation District and serve as Chairman of the New Mexico Soil and 
Water Conservation Commission. I am the Executive Director of the New 
Mexico Forest Industry Association and hold a bachelor's degree in 
business administration from the University of New Mexico.
    During my lifetime and those of my forefathers, we in the West have 
learned to live and work with Mother Nature, which includes managing 
our lands, forests and animals through the cyclical droughts that have 
been a part of the Earth's evolution since the beginning of time.
    The most recent drought appears to have hastened the mega-fires 
that continue to alter the landscape with increasing frequency across 
the western United States, and thus the need to confront the reality 
that each year of tepid, court driven forest management that passes, is 
another year that we destroy millions of acres of forests, grasslands, 
homes, livelihoods, animals, both domestic and wild, as well as the 
invaluable watersheds that communities, urban and rural alike, depend 
upon.
    In the fires aftermath we have highly eroding watersheds, streams 
that run black, lakes choked with soil, rocks, downed trees and other 
debris, and decimated wildlife habitat that will take many decades of 
effort and uncalculated millions of dollars just to stabilize. It could 
take a century or more to restore.
    We all know, or should know, that the expense incurred to mitigate 
the immediate damage caused by the wildfires that decimate our fuel 
laden forests is many times more expensive than prudent, diligent 
forest management ever could be. Additionally, proper and proactive 
forest management also provides jobs to rural communities, produces 
timber for homes and business, biomass for renewable energy, protects 
homes and other infrastructure, improves habitat for endangered species 
and other wildlife, increases forage production for livestock, and most 
importantly maintains or improves intact watersheds to deliver much 
needed water to our irrigated fields, municipalities and waterways.
    It may be easy to place blame on the U.S. Forest Service (USFS) for 
the devastation that New Mexico and other states in the West are facing 
even as we speak, but the agency is not the culprit. There are many 
valiant men and women, from those fighting the fires to the top levels 
of management, who are doing their best to save our resources in the 
face of litigation driven management, or lack thereof.
    In New Mexico, all of the negative impacts related to catastrophic 
wildfires are coming to pass, and all in the last two years. The 
culmination of a century of inappropriate fire suppression, decreasing 
timber harvests and decades of environmental litigation have rendered 
forest management to be both costly and complex, exacerbating the 
unhealthy conditions of our forests. The fact of the matter is that you 
can't preserve a forest, you have to manage it. To do otherwise, is to 
risk the loss of the multiple benefits that it provides.
    To be clear, fire is a tool that must be used in the management of 
forests, however, to let a fire burn in Wilderness or anywhere else, in 
the spring and summer, when temperatures and winds are high and 
humidity is low is not just irresponsible, but is nearly criminal. On 
May 9, a NMCGA member called in the Baldy Fire when he saw one tree 
burning as a result of lightning. On that day it would have taken one 
man on horseback to put the fire out.
    Instead, the fire was allowed to burn, eventually merging with the 
Whitewater Fire that started on May 16 in the same manner. Combined, 
these fires are now the largest fire ever in New Mexico, at 300,000 
acres. The fire grew by 70,000 acres in just one day due to sustained 
winds, according to the USFS.
    Not only were structures lost, but now agencies at all levels are 
scrambling to save communities from the runoff due to annual summer 
rains. Couple the Whitewater/Baldy Fire with last year's 500,000 plus 
acre Wallow Fire in Arizona and New Mexico, and much of the Mexican 
wolf, Mexican Spotted Owl, Spikedace and Loach Minnow habitat has been 
destroyed. It is impossible to ever know how much wildlife was lost.
    The Little Bear Fire near Ruidoso in May and June had a similar 
start. It was first seen on a Tuesday, again in Wilderness, and let 
burn. On Friday night it blew out of control, eventually destroying 
over 250 homes and businesses and charring over 30,000 acres. Little 
Bear has been dubbed the most destructive fire in New Mexico history.
    In reality, we cannot yet know the total magnitude of the 
destruction. The aftermath of last year's Las Conchas Fire, then the 
largest in the state's history, and in excess of 150,000 acres, 
continues to ravage the landscape and decimate the Santa Clara Pueblo 
northwest of Santa Fe. Runoff from this year's summer rains have taken 
out all of the erosion protection that was put in immediately after the 
fire as well as heavy equipment and work currently being done.
    At the inception of the United States Forest Service, and outlined 
in the 1897 Organic Act as passed by Congress, three management goals 
were listed for the newly created forest reserves:
        <bullet>  To improve and protect the public forests
        <bullet>  Secure favorable water flows, and
        <bullet>  Provide a continuous supply of timber, under 
        regulation.
    I think it would be fair to say that instead of reaching those 
goals, we are moving ever further away from achieving any of the three, 
mainly due to court and self-imposed constraints.
    We can learn much from the management of tribal lands in New Mexico 
and Arizona. The Wallow Fire did little damage on the White River 
Apache Reservation due to the ongoing management by the tribe of their 
forested lands. The same holds true for fires that have burned near the 
Mescalero Reservation in south central New Mexico.
    We continually hear in the media that these mega-fires are in part 
due to overgrazing. A century ago that may have been true. Today, 
however, the lack of grazing as part of a comprehensive management plan 
contributes to the volume of these fires.
    With over 25,000 fire starts occurring this year alone in the West, 
destroying millions of acres, thousands of animals, including 
threatened and endangered species, hundreds of homes and businesses, 
and even human lives, it is imperative that we remove the shackles of 
often conflicting policies, rules and regulations borne of incessant 
litigation over time and resolve to streamline the required National 
Environmental Policy Act analyses that prevent the proactive management 
of our forests. We need to:
        <bullet>  Improve access for the removal of the fuels that are 
        choking our forests and depleting our water supplies.
        <bullet>  Increase the number of landscape scale projects of a 
        million acres or more, to accelerate treatments, creating 
        efficiencies of scale and decreased costs.
        <bullet>  Allow land management flexibility in Wildland/Urban 
        Interface communities to quickly reduce the threat of 
        catastrophic fire.
        <bullet>  Provide incentives to create the economic engine that 
        will utilize the small diameter fuels we need to remove from 
        the forests for renewable energy purposes and other large-scale 
        utilization.
        <bullet>  Manage the fine fuels load in the forests through 
        proper grazing management.
        <bullet>  Sustain a steady and increasing flow of timber from 
        our forests to maintain the viability of our remaining wood 
        utilization infrastructure and their employees.
    To accomplish these goals, we need to train the workforce that will 
be required to make our unhealthy forests resilient again.
    Instead, our government is funding the destruction of our 
landscape, our economies and our families through litigation. There is 
no doubt that the Endangered Species Act (ESA) and its citizen lawsuit 
provision were well intended. However, I doubt that the framers of the 
Act, 40 years ago, could have contemplated what was to come.
    So, instead of saving and rebuilding populations of dwindling 
species, because of litigation, the exact opposite is occurring. One of 
the key components of the ESA is the designation of ``critical 
habitat'' in which species are supposed to be protected and allow for 
an increase in their populations. Yet critical habitat designation 
provides a fertile feeding ground for the lucrative litigation of 
radical environmental groups, and prevents proactive forest management.
    Comparing the 990 returns for two groups from 2000 to 2010, the 
WildEarth Guardians net worth increased by 1,019.90 percent just as the 
Center for Biological Diversity's net worth increased by 466.98 percent 
during that period. The WildEarth Guardians recently topped $1 million 
in revenue derived from their litigation in New Mexico alone, according 
to research by Wyoming attorney Karen Budd-Falen. Add to that the more 
than $1 billion the USFS alone is spending annually on fire suppression 
and the American taxpayer is really being harmed.
    While funding will always be an issue in adequately addressing the 
enormous amount of deferred maintenance in our forests, utilizing the 
full funding of the Land and Water Conservation Fund to proactively 
manage our nation's forests, as opposed to using the fund to purchase 
more lands that will add to the management backlog, would certainly be 
a step in the proper direction. And obviously, reducing environmental 
litigation by requiring the litigant to prove that the risks associated 
with no management is a better long-term method for protecting 
endangered species than proper forest management would be.
    In closing, I wanted to reiterate that we cannot ``preserve'' our 
forests. They must be managed. The trees and grasses produced in our 
forests are renewable resources, if they are managed. Otherwise, they 
just burn.
    Thank you for your time.
                                 ______
                                 
    The Chairman. Thank you very much, Mr. Lopez, for your 
testimony.
    I now recognize Mr. Bill Crapser, who is the Chairman-elect 
of the Council of Western State Foresters, from Cheyenne, 
Wyoming.
    Mr. Crapser, you are recognized for 5 minutes.

 STATEMENT OF BILL CRAPSER, CHAIRMAN-ELECT, COUNCIL OF WESTERN 
               STATE FORESTERS, CHEYENNE, WYOMING

    Mr. Crapser. Thank you, Chairman Hastings. My name is Bill 
Crapser. I am the Wyoming State Forester. I am here today on 
behalf of the Council of Western State Foresters and the 
National Association of State Foresters.
    State foresters manage and protect State and private lands 
across the United States that make up two-thirds of our 
Nation's forest. We also work very closely with our Federal and 
local partners to deliver forestry and wildfire protection 
programs. It is no secret that all of our forests face 
significant threats. These threats come in many forms, such as 
forest insects and disease, changes in management, long-term 
droughts, and wildfires that seemingly grow in size and 
intensity each year.
    We believe that it is important to work together for the 
long-term health and sustainability of our forests. We simply 
have too much at stake to do anything but work actively to 
sustain and manage all of our forests.
    Perhaps the biggest threat on our minds this summer is the 
threat of wildfire. We are essentially experiencing a perfect 
storm stemming from the combined impacts of long-term drought, 
unhealthy landscapes, and more people living within fire-prone 
landscapes. According to the National Interagency Fire Center, 
last year 74,000 fires burned more than 8.7 million acres 
across the country. All these factors have caused our job of 
protecting our forest and communities from the negative impacts 
of fire to become increasingly expensive and complex.
    But acres alone don't capture the full impact. In my home 
State of Wyoming, where our fire season is off and running, but 
far from over, we have already burned more than 350,000 acres 
and lost more than 30 homes. In neighboring Colorado, the 
damage is even worse. Large fires have destroyed more than 700 
homes and taken several lives. While we work with communities 
nearly every day to prepare community wildfire protection 
plans, we need to do more to treat the fuel loads in all of our 
forests to protect both communities and the forests from the 
fires that seem to be burning with increased and unnatural 
intensity and severity.
    The Western Forestry Leadership Coalition's report on the 
true cost of wildfire revealed that the range of total cost of 
wildfires, including suppression, rehabilitation, and indirect 
cost, can be as much as 30 times greater than the suppression 
cost alone. While no amount of active management will eliminate 
fire from our ecosystems, active management can effectively 
reduce fire hazard and improve the overall health and 
resiliency of the forest.
    Additionally, active management provides sustainable timber 
and other forest products that means jobs for local communities 
and economies. We need to break the current cycle with 
continued forest accumulation and larger, more destructive 
wildfires.
    State foresters continue to support the efforts to provide 
Federal land management agencies with the tools they need to 
succeed in increasing active management on all forest lands, 
such as extending the stewardship contracting authority, 
expanding the good neighbor authority, and fully utilizing 
authorities made possible through the Healthy Forest 
Restoration Act.
    The Federal Land Assistance Management Act and Enhancement, 
or FLAME, passed in 2009, included direction to collaboratively 
develop a national cohesive wildfire strategy. As part of this 
cohesive strategy, work is underway to address not only the 
suppression of wildfires, but also increasingly active 
management, while considering social and economic implications.
    Already this year, the National Interagency Fire Center 
reports 33,000 wildland fires have burned more than 3.7 million 
acres, nationwide. The Nation's forest and range lands will 
continue to be at risk of wildfire until barriers to active 
management are removed. More importantly, the lack of forest 
management has left life and property vulnerable to 
catastrophic fire.
    I appreciate the opportunity to appear before the Committee 
today. And, in closing, I would like to say we talk a lot about 
the natural resources. That is what this Committee is focused 
on. But to me, the true cost of wildfire is safety, firefighter 
and public safety. And that is one thing we need to focus on, 
as we move forward in these conversations.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Crapser follows:]

 Statement of Bill Crapser, Wyoming State Forester, Chair-Elect of the 
     Council of Western State Foresters and Member of the National 
                     Association of State Foresters

    On behalf of the Council of Western State Foresters and the 
National Association of State Foresters, I thank Chairman Hastings and 
Ranking Member Markey for the opportunity to appear before the 
Committee today. The Council of Western State Foresters (CWSF) 
represents the directors of the state forestry agencies of seventeen 
western states and six Territorial Islands. The National Association of 
State Foresters (NASF) represents the directors of the state forestry 
agencies of all fifty states, eight territories, and the District of 
Columbia. State Foresters manage and protect state and private forests 
across the U.S., which make up two-thirds of the nation's forests, and 
work closely with our federal partners to deliver forestry programs and 
wildfire protection.
    It is no secret that our forests, regardless of ownership, face 
significant threats to their overall health.\1\ These threats come in 
many forms including land-use change, native and invasive insects and 
diseases, long-term drought, and wildland fires that continue to grow 
in size and intensity. One commonality among these threats is that they 
cross forest boundaries and ownerships. For those of us in the West, 
forests span across federal, tribal, state and private ownerships which 
makes responding to wildland fire and insect and disease infestations 
especially complex. In order to protect all of our forests from these 
threats and to sustainably manage forested landscapes to maximize the 
goods and services that they provide--including clean air and water, 
recreational opportunities, and forest products and jobs--it is crucial 
that we work together to find ways to actively manage all of our 
forests to provide for their long-term health and sustainability.
---------------------------------------------------------------------------
    \1\ See Threats to Western Private Forests: A Framework for 
Conservation and Enhancing the Benefits from Private Working Forests in 
the Western U.S. Last accessed July 19, 2012 at http://
www.wflccenter.org/news_pdf/359_pdf.pdf.
---------------------------------------------------------------------------
Wildland Fire Impacts
    Wildland fire protection and management has become an increasingly 
expensive endeavor and is expected to continue to grow in complexity 
and cost. More people in fire-prone landscapes, larger and more 
frequent wildland fires, long-term drought, and unhealthy landscapes 
have created a wildland fire situation that can easily overwhelm fire 
management efforts, frustrate fire management entities, and results in 
billions of dollars in suppression costs each year. The Western 
Governors' Association summed up the situation in a recent policy 
resolution stating that ``[t]he health of the national forests and 
range lands has deteriorated due to a reduction in management. . . . 
The wildfire season is longer, more extreme, and wildfires are 
larger.'' \2\ The scope of the wildland fire problem is immediately 
evident in the Forest Action Plans \3\ completed by all state forestry 
agencies, wherein wildland fire was uniformly identified as a 
significant priority issue.
---------------------------------------------------------------------------
    \2\ Western Governors' Association Policy Resolution 12-10: 
Wildland Fire Management and Resilient Landscapes. Last accessed July 
19, 2012 at http://www.westgov.org/policies.
    \3\ See Forest Action Plans website. Last accessed July 19, 2012 at 
www.forestactionplans.org.
---------------------------------------------------------------------------
    We can all talk about the problem in general terms, but it is 
important to recognize the enormous impact that these fires have on 
everyday Americans who make their home in fire prone landscapes. In 
2011, more than 74,000 wildland fires burned over 8.7 million acres 
across all forest ownerships.\4\ These large fires leave a wake of 
damage and destruction not only in our forests but also in our 
communities. In my home state of Wyoming our fire season has just 
begun, yet we have already burned more than 350,000 acres and lost more 
than 30 homes. The damage is even greater in the Front Range of 
Colorado where large wildfires have taken several lives and destroyed 
more than 700 homes.\5\ There are an estimated 66,700 communities 
across the country currently at risk of wildland fire.\6\ State 
Foresters and our partners continue working with communities every day 
to prepare Community Wildfire Protection Plans, but we are faced with 
the reality of continually declining forest health and increasing 
wildland fire threat making our work to protect communities all the 
more difficult.
---------------------------------------------------------------------------
    \4\ National Interagency Fire Center, Historical Wildland Fire 
Summaries, pg. 9. Last accessed July 19, 2012 at http://
www.predictiveservices.nifc.gov/intelligence/2011_statssum/intro_
summary.pdf.
    \5\ Long, hot summer: Wildfires thrive on drought, heat and wind, 
Los Angeles Times. Last accessed July 19, 2012 at http://
articles.latimes.com/2012/jul/02/nation/la-na-fires-ahead-20120702.
    \6\ National Association of State Foresters, Communities at Risk 
Report FY2011. Last accessed July 19, 2012 at http://
stateforesters.org/files/2011-NASF-finalCAR-report-FY11.pdf.
---------------------------------------------------------------------------
    As discussed above, the damage that results when high fuel loads, 
long-term drought and severe weather conditions all come together can 
be devastating to communities, economies and ecosystems. Already this 
year the intermountain West has experienced historic fires in terms of 
size, severity and destruction. But the immediate suppression and 
rehabilitation costs and destruction amount to only a fraction of the 
true impact.
    In a report completed by the Western Forestry Leadership Coalition 
examining ``The True Cost of Wildfire in the Western U.S.'' the range 
of total costs stemming from wildland fires, including costs of 
suppression, rehabilitation and indirect costs, was found to be 2 to 30 
times greater than the reported suppression costs.\7\ Given the 
enormous true costs of wildfire, which are often incurred for many 
years after the last ember has gone cold, the report calls attention to 
``insufficient emphasis on active management before fire'' and 
recommends that investments in forest management be targeted to improve 
forest health and treat forests overstocked with hazardous fuels before 
they burn.\8\ While no amount of active management will eliminate fire 
from forest ecosystems, active management can effectively reduce fire 
hazard, improve the overall health and resiliency of the forest and 
provide a sustainable supply of timber other forest products and 
associated jobs. In order to break the current cycle of continued 
forest fuel accumulation and larger, more destructive wildland fires, 
we need to refocus our efforts to actively and sustainably manage all 
forests.
---------------------------------------------------------------------------
    \7\ True Cost of Wildfire in the Western U.S. at pg. 2. Last 
accessed July 19, 2012 at http://www.wflccenter.org/news_pdf/
324_pdf.pdf.
    \8\ Id. at 13.
---------------------------------------------------------------------------
National Cohesive Wildland Fire Management Strategy
    When Congress approved the Federal Land Assistance, Management, and 
Enhancement (FLAME) Act in 2009 it signaled that business as usual in 
terms of fire suppression and management was no longer working. A major 
piece of the FLAME Act is the National Cohesive Wildland Fire 
Management Strategy (Cohesive Strategy), which is a collaborative 
effort to identify, define, and address wildland fire management 
problems and opportunities for success across the country. Recently, 
the three regions (West, Northeast and South) completed unified 
regional strategies focused not solely on wildland fire suppression, 
but also exploring issues of natural resource management and the social 
and economic implications of landscape-scale management and wildland 
fire management. These efforts were guided by the three goals of the 
Cohesive Strategy, which relate directly to addressing the impact of 
wildland fire on people and ecosystems--the focus of today's hearing:
        1.  Restore and Maintain Landscapes: Landscapes across all 
        jurisdictions are resilient to fire-related disturbances in 
        accordance with management objectives.
        2.  Fire-adapted Communities: Human populations and 
        infrastructure can withstand a wildfire without loss of life 
        and property.
        3.  Wildfire Response: All jurisdictions participate in making 
        and implementing safe, effective, efficient risk-based wildfire 
        management decisions.\9\
---------------------------------------------------------------------------
    \9\ A National Cohesive Wildland Fire Management Strategy: Phase II 
National Report, pg 2. Last accessed July 19, 2012 at http://
www.forestsandrangelands.gov/strategy/documents/reports/phase2/
CSPhaseIIReport_FINAL20120524.pdf.
---------------------------------------------------------------------------
    In the recently released Phase II Report of the Cohesive Strategy 
there is an upfront recognition that fire is a natural disturbance 
mechanism across forest ecosystems and that an unintended consequence 
of wildland fire suppression in the 20th century are the millions of 
acres of overstocked forests.\10\ Aggressive and effective fire 
suppression coupled with a lack of active management--i.e. timber 
harvest, thinning and prescribed fire--has resulted in large fuel 
accumulations across the West exceeding the historic range of 
variability and leaving forests, communities and the people who live in 
them vulnerable uncharacteristic and catastrophic wildland fire.
---------------------------------------------------------------------------
    \10\ Id. at 3.
---------------------------------------------------------------------------
    The FLAME Act, which called for the development of the Cohesive 
Strategy, was built, in part, to protect the ability of the federal 
agencies to accomplish other resource benefits by establishing wildland 
fire reserve accounts. However, as the fire season in the West 
continues, we face a very real threat of fire transfers from key U.S. 
Forest Service programs that support active management because these 
reserve accounts have been targeted for transfers in this time of 
budgetary constraints. In order for the FLAME Act to function as 
intended and retain the ability of the U.S. Forest Service to implement 
active management and accomplish non-suppression objectives, the FLAME 
Funds must be supported by Congress and protected from future 
transfers.
Barriers to success
    While we have a growing consensus that active management is needed 
to break the current cycle of fuel accumulations and increasingly 
destructive wildland fires, we have not yet turned the corner to fully 
implementing active management at a landscape scale. Addressing policy 
barriers identified by the regions that could interfere with the goals 
of the Cohesive Strategy, the Phase II report states that ``[l]andscape 
scale restoration is often difficult to achieve due to complex process 
requirements of Federal laws, rules, and policies.'' \11\ State 
Foresters continue to support efforts to provide federal land 
management agencies with the tools they need to succeed in implementing 
appropriate active management on all forest lands--such as extending 
the stewardship contracting authority, expanding the good neighbor 
authority and fully utilizing authorities made possible through the 
Healthy Forests Restoration Act.\12\
---------------------------------------------------------------------------
    \11\ A National Cohesive Wildland Fire Management Strategy: Phase 
II National Report, pg 39. Last accessed July 19, 2012 at http://
www.forestsandrangelands.gov/strategy/documents/reports/phase2/
CSPhaseIIReport_FINAL20120524.pdf.
    \12\ See National Association of State Foresters Resolution No. 
2011-12: Landscape-Scale Management in the Vicinity of Federal Lands. 
Last accessed July 19, 2012 at http://www.stateforesters.org/sites/
default/files/publication-documents/2011-2-NASF-Resolution-Landscape-
Management-Federal-Vicinity_0.pdf.
---------------------------------------------------------------------------
    The Phase II Report of the Cohesive Strategy also identifies the 
fear of litigation as a potential barrier to landscape scale 
restoration.\13\ Mortimer and Malmsheimer (2011) found that the U.S. 
Forest Service is the agency most commonly litigated on procedural 
matters under the National Environmental Policy Act.\14\ Because of 
this, there has been strong interest around the impact of the Equal 
Access to Justice Act (EAJA) as a fee-shifting statute that may 
ultimately influence management of National Forest System lands. Their 
2011 study established that the number of lawsuits against the U.S. 
Forest Service is increasing even though litigation against the agency 
generally has a low probability of success. Their study concluded that 
the original intent of the EAJA has drifted with its use in national 
forest management litigation. We would carefully consider any 
modifications to the EAJA that may be needed reaffirm the original 
intent of the act and address any current issues with the system.
---------------------------------------------------------------------------
    \13\ A National Cohesive Wildland Fire Management Strategy: Phase 
II National Report, pg 39. Last accessed July 19, 2012 at http://
www.forestsandrangelands.gov/strategy/documents/reports/phase2/
CSPhaseIIReport_FINAL20120524.pdf.
    \14\ Mortimer, M.J. and R.W. Malmsheimer. 2011. The Equal Access to 
Justice Act and US Forest Service Land Management: Incentives to 
Litigate? Journal of Forestry 109(6): 352.
---------------------------------------------------------------------------
    Finally, by way of an example of how implementation and 
interpretation of federal laws and regulations can constrain active 
management, the NASF recently submitted comments to the U.S. Fish and 
Wildlife Service concerning expansion of incentives under the 
Endangered Species Act (ESA). The NASF noted that the use of the 
regulatory hammer causes confrontation with private forest landowners 
and that positive, voluntary incentives for landowners to manage their 
lands to provide habitat for threatened and endangered species would be 
more productive.\15\
---------------------------------------------------------------------------
    \15\ NASF Letter: Comments on USFWS Expanding Incentives. Last 
accessed July 19, 2012 at http://www.stateforesters.org/nasf-letter-
comments-usfws-expanding-incentives.
---------------------------------------------------------------------------
    This same concern unfolds slightly differently on federal lands. 
Arguably, laws such as the ESA have placed too much focus on single 
species versus a comprehensive approach to resource management that 
looks at the full suite of ecological, economic and social issues and 
opportunities. To be effective, regulations should be able to 
accommodate both modern science and modern collaborative approaches to 
addressing the needs of diverse stakeholders.
Conclusion
    As of July 16, 2012, the National Interagency Fire Center reports 
that over 33,000 wildland fires have occurred burning 3.7 million acres 
nationwide. The nation's forests will continually be subject to an 
increasing threat of wildland fire until barriers to active management 
are removed. Most importantly, the lack of forest management has left 
life and property vulnerable to catastrophic wildfire. I appreciate the 
opportunity to appear before the Committee today to offer perspectives 
shared by state foresters regarding the impacts of wildland fire. I 
would like to thank the Committee for its continued leadership and 
support of active, sustainable management of all forest lands.
                                 ______
                                 
    The Chairman. Thank you very much, Mr. Crapser, for your 
testimony.
    Next we have Ms. Alison Berry, who is the Energy and 
Economic Specialist for the Sonoran Institute in Bozeman, 
Montana. Ms. Berry, you are recognized for five minutes.

STATEMENT OF ALISON BERRY, ENERGY AND ECONOMICS SPECIALIST, THE 
              SONORAN INSTITUTE, BOZEMAN, MONTANA

    Ms. Berry. Thank you, Mr. Chairman and members of the 
Committee. Thanks for the opportunity to provide my perspective 
on this important topic of concern to my hometown of Bozeman, 
Montana, and to communities throughout the West. My name is 
Alison Berry, I am an energy and economics specialist at the 
Sonoran Institute, which is a non-profit organization that 
works collaboratively with local people to promote healthy 
landscapes, vibrant communities, and resilient economies in 
western North America. Our organization has headquarters in 
Tucson, Arizona, and offices throughout the West. I work in our 
northern Rockies office in Bozeman, and my work focuses on 
natural resource economics and policy.
    Wildfire is a critical issue for landscapes and communities 
in the West. Fires are a vital part of the cycle of growth, 
destruction, and renewal that is both natural and beneficial to 
functioning forest ecosystems. But as housing subdivisions are 
built in fire-prone areas, there is an increased risk to people 
and property. This results in higher cost to taxpayers for 
Federal fire prevention and suppression, and greater property 
losses and risk to life in the event of catastrophic wildfire.
    Without fundamental changes in the way that we manage both 
growth and fire, we can expect these issues to be exacerbated 
by the higher temperatures and widespread drought that we are 
experiencing this summer, and that are predicted to intensify, 
due to a change in climate.
    So, ironically, in many parts of the West, expensive 
efforts to stamp out fire in the last century have added fuel 
for future fires by making forests denser, with more flammable 
vegetation. In essence, wildfire management practices have 
created a new cycle of fire suppression and fuels accumulation 
that will make future fires more intense, damaging, and costly.
    In addition, successful fire suppression efforts often 
create a sense of false security in fire-prone areas, 
effectively encouraging development on the edge of these 
forests in the Wildland/Urban Interface. Between 1970 and 2000, 
the developed portion of the Wildland/Urban Interface grew in 
area by 52 percent. And currently we see more than one-third of 
new construction in the West is in Wildland/Urban Interface 
areas.
    If this type of development occurs in these high-risk 
areas, Federal fire suppression expenditures, which currently 
top $1 million for the Forest Service alone, will continue to 
spiral out of control, and natural fire is unlikely to return 
to landscape any time soon.
    So, it is time to get smarter about how we develop growth 
in these areas. To date, most Federal efforts to reduce fire 
risk in Wildland/Urban Interface have focused on reducing 
fuels, removing small trees and brush, either mechanically or 
through prescribed burning. Local efforts have generally 
focused on requiring new subdivisions to incorporate fire-wise 
principles, things like defensible space and fire-resistant 
building materials.
    And while these local and Federal measures can help reduce 
the risk of homes burning, they do little to keep firefighters 
and civilians out of harm's way. So, a better solution might be 
to focus on prevention by guiding development away from high-
risk areas, and encouraging development in safer areas. While 
Federal policy changes are needed to reduce risk in the 
Wildland/Urban Interface, guiding development away from high-
risk areas is primarily a State and local responsibility. And 
while Federal reform is needed in its management of wildfire, 
the role that counties, communities, and local regulations play 
is significant, and it is often overlooked and under-stated.
    Our report, ``In the Line of Fire,'' here and available on 
the press table, focuses on how local action can reduce the 
risk of catastrophic wildfire. If western communities and 
counties promoted responsible development patterns, forested 
areas, it would save millions of taxpayer dollars for 
suppression, reduced risk to people and property, and restore 
healthy forest conditions. The reform is needed at the Federal 
level to provide incentives for local governments to take these 
actions. Local jurisdictions have little motivation to reduce 
the risk of wildfire, when wildfire is perceived as a Federal 
issue.
    In particular, past fire suppression programs have amounted 
effectively to a taxpayer subsidy for development in fire-prone 
areas, increasing the amount of land that is converted to 
residential uses in these areas.
    Federal Government can help with local mapping efforts to 
establish where these fire-prone areas are. The insurance 
industry has a role in also discouraging development in risky 
locations, by charging higher premiums in those areas.
    In essence, Federal guidance, and collaboration with local 
planning can help save the lives of firefighters and residents, 
and reduce the cost to taxpayers of protecting homes that were 
built in places where fire is inevitable.
    Thank you for this opportunity.
    [The prepared statement of Ms. Berry follows:]

      Statement of Alison Berry, Energy and Economics Specialist, 
                         The Sonoran Institute

    Mr. Chairman and members of the committee:
    Thank you for the opportunity to provide my perspective to the 
House Committee on Natural Resources on this important topic of concern 
to my hometown of Bozeman, Montana and communities all over the western 
United States. My name is Alison Berry; I am the Energy and Economics 
Specialist for the Sonoran Institute, a nonprofit organization that 
works collaboratively with local people to promote healthy landscapes, 
vibrant communities and resilient economies in western North America. 
Our organization has headquarters in Tucson, Arizona and offices 
throughout the West. I work in our Northern Rockies office in Bozeman 
and my work focuses on natural resources economics and policy.
    Wildfire is a critical issue for landscapes and communities in the 
West. Fires are part a vital part of the cycle of growth, destruction 
and renewal that is both natural and beneficial to functioning forest 
ecosystems.
    As housing subdivisions are built in fire-prone areas, however, 
there is an increasing risk to people and property. This results in 
higher costs to taxpayers for federal fire prevention and suppression, 
and greater property losses and risk to life in the event of 
catastrophic wildfires. Without fundamental changes in the way that we 
manage both growth and fire, we can expect these issues to be 
exacerbated by the higher temperatures and widespread droughts that we 
are experiencing this summer and that are predicted to intensify due to 
a changing climate. Ironically, in many parts of the West, expensive 
efforts during the past century to stamp out wildfires have added fuel 
for future fires by making forests denser, with more flammable 
vegetation. By interrupting the natural process of fires, wildfire 
management practices have created a new cycle--fire suppression and 
fuel accumulation--that will make future fires more intense, damaging, 
and costly.
    In addition, successful fire suppression often creates a false 
sense of security in fire-prone areas, effectively encouraging 
development on the edge of these forests, in the so-called ``wildland-
urban interface,'' or WUI. If rapid development in the WUI continues, 
federal fire suppression expenditures--which currently top $1 billion 
each year for the Forest Service alone--will continue to spiral out of 
control, and natural fire is unlikely to be restored to forests anytime 
soon. It is time we got smarter about how development takes place in 
these high-risk areas. Here are some facts:
        <bullet>  Between 1970 and 2000, the developed portion of the 
        wildland urban interface grew in area by 52 percent, according 
        to a study from Colorado State University.
        <bullet>  A 2012 study from the University of Massachusetts 
        found that in recent years, about one-third of new construction 
        in the West has been in wildland urban interface areas.
        <bullet>  Data from the National Interagency Fire Center and 
        the National Oceanographic and Atmospheric Administration show 
        that since 2000, there have been at least 114 wildfire 
        fatalities in the United States, and more than 9,000 structures 
        have been destroyed, with damages totaling more than $8.5 
        billion.
        <bullet>  The portion of the Forest Service budget dedicated to 
        wildland fire management has grown from 13 percent in 1991 to 
        more than 30 percent in 2012.
        <bullet>  An early study of fire suppression in the wildland 
        urban interface found that when fighting large fires, between 
        50 and 95 percent of federal spending goes towards protecting 
        private homes.
Focusing on Prevention 
     To date, most efforts to reduce risks of fire in the WUI have 
focused on reducing ``fuels''--removing small trees and brush, either 
mechanically or with prescribed burning. Local land use planning 
efforts generally consist of requiring new subdivisions to incorporate 
``firewise'' characteristics such as fire-resistant building and 
landscaping materials, adequate water supplies for firefighting, and 
road access for emergency vehicles. While these measures can help 
reduce the risk of homes burning, they do little to keep firefighters 
and civilians out of harm's way. A better solution would be to focus on 
prevention by guiding development away from high risk areas and 
encouraging development in safer areas. This approach would not only 
keep people and property out of danger, but it would also reduce the 
growing taxpayer burden of protecting homes built in hazardous 
locations.
     While much of the research on this issue has focused on the 
federal policy changes that are needed to reduce risks in the WUI, 
guiding development away from high risk areas is primarily a state and 
local responsibility. We agree that it is absolutely essential to 
reform federal policy driving wildfire management; however, the role 
and significant impact that counties, communities and local regulations 
can play in reducing the risks of wildfire is often overlooked or 
understated. The Sonoran Institute's report, In the Line of Fire, 
focuses primarily on how local action can reduce the catastrophic 
effects of wildfire. (Available online: http://
www.sonoraninstitute.org/mediaroom/stories-stories/329-in-the-line-of-
fire-managing-growth-at-the-forests-edge.html)
Managing the Impacts of Wildfires--Locally 
     If western counties and communities promoted responsible 
development patterns in forested areas, it would save millions of 
taxpayer dollars needed for fire suppression, reduce risks to people 
and property, and restore forests to healthier conditions. The National 
Floodplain Insurance Program provides a model of one way to steer 
residential development away from risky locations. A similar program 
could be applied to control growth in the wildland urban interface.
Reform Needed at All Levels 
    Reform is also needed at the federal level: local jurisdictions 
have little motivation to reduce risks of wildfire when state and 
federal agencies--such as the U.S. Forest Service--cover the majority 
of the costs for fire suppression in the WUI. This amounts to a 
taxpayer subsidy for development in fire-prone areas, increasing the 
amount of land converted to residential uses in these areas.
    In addition, the federal government could support local mapping 
efforts that would more accurately identify fire-prone areas. Most 
existing WUI maps are notoriously vague, making it difficult to 
implement local growth management efforts in fire-prone areas. Better 
mapping would allow more effective growth management in these areas; 
the investment by the federal government would be recouped by reduced 
federal fire suppression costs. The insurance industry can also help 
discourage development in risky locations. As they do in floodplains, 
insurance companies should require higher premiums in areas of higher 
fire risk. When people do choose to live in the WUI, higher insurance 
premiums would oblige them--instead of other insured homeowners--to 
bear the costs of their decisions. In conclusion, with the stakes to 
life and property so high, there are very specific actions the federal 
government can take to help reduce taxpayer costs associated with 
wildifires, including partnering with local jurisdictions and the 
private insurance industry to provide resources and incentives for 
policy reform. With federal leadership, there is every reason for local 
governments to use well-established, effective growth management tools 
to limit or prohibit development in the high risk areas for wildfire. 
Federal guidance and local planning can help save the lives of 
firefighters and residents and reduce the cost to taxpayers of 
protecting homes that were built in places where fire is inevitable.
                                 ______
                                 
    The Chairman. Thank you very much for your testimony.
    And last we have Mr. Rick Dice, who is the President of the 
National Wildfire Suppression Association. And I am sure all 
your members are busy as we speak right now. So thank you very 
much for being here, and you are recognized for 5 minutes.

     STATEMENT OF RICK DICE, PRESIDENT, NATIONAL WILDFIRE 
            SUPPRESSION ASSOCIATION, REDMOND, OREGON

    Mr. Dice. Chairman Hastings, Ranking Member Markey, and 
Committee members, first I want to thank you for this 
opportunity to testify before the Committee. My name is Rick 
Dice, and I am the President of the National Wildfire 
Suppression Association, as well as the CEO of PatRick 
Environmental, which provides fire resources to multiple 
Federal and State agencies for wildland fire suppression and 
other emergency efforts.
    The National Wildfire Suppression Association and WSA 
represents over 250 private wildland fire service contractors 
who can rapidly deploy over 10,000 professional emergency 
service employees. Our employees are hand crews, engine crews, 
support personnel. NWSA has provided the highest level of 
training and certification. The training meets or exceeds 
Federal requirements for all employees and equipment we provide 
to the Federal agencies. We work cooperatively with the 
government agencies to provide the best possible fire 
suppression resources.
    During the time we are in discussion today, NWSA 
firefighters and the employees of my own company are engaged in 
wildland fire efforts across the United States. This effort is 
being hindered, and firefighters are exposed to more danger 
because of the significant and unnatural build-up of forest and 
range land fuels on our Federal lands. This is in part due to 
the increasingly cumbersome planning process our Federal land 
managers must now go through to comply with the Endangered 
Species Act.
    I built my company as a forest fuels management business, 
treating fuels and helping to reduce the risk of wildfire. In 
the early 1970s, 90 percent of my business income was derived 
from fuels management and hazardous fuels reduction work. Now, 
in 2012, 40 years later, 90 percent of my business income comes 
from work derived from wildland fire suppression. We once 
worked in the woods to proactively prevent and reduce damage 
from wildfires. Now we only react to these larger catastrophic 
wildland fires after the ignition occurs. These larger fires 
have increased in intensity, frequency, and are well outside 
the historic levels, both throughout our forest range land and 
forest-interfaced areas.
    The Endangered Species Act, Federal Land Policy Land 
Management Act, and the National Environmental Policy Act 
individually provide important environmental safeguards. Yet, 
collectively, they intertwine and overlap, in often 
contradictory ways that make it nearly impossible for the 
Federal land managers, local elected officials, partnership 
groups, private companies to navigate through the paperwork 
related to the laws. The result at times appears to be legal 
gridlock. These laws need to be updated to address the issues 
of our time.
    Forty years after their original enactment, many 
interpretations have been made by differing individuals and 
agencies. Some of these issues have changed during this time, 
and we need the legislative tools to address today's 
environmental issues, and continue to provide protection, but 
enable our agency managers the ability to accomplish 
appropriate suppression and pre-suppression activities in our 
forests and range land. Initial attack of wildland fires is 
imperative in being able to suppress fires at the smallest 
possible acreage.
    The current Endangered Species Act at times creates 
obstacles which are counter-productive to these suppression 
efforts. The following incidences are examples of this. There 
are situations when the use of heavily mechanized equipment has 
been denied. The use of aerial retardant delivery is becoming 
increasingly restrictive on where it can be used. Pumping sites 
and water holes have become unusable, due to the cost of ESA 
and NEPA. There have been situations where helicopters were not 
able to dip water out of the river, because of salmon smolt.
    This type of a situation hinders a fire crew's ability to 
successfully suppress the fires when access to a water source 
is denied due to concerns with ESA compliance. Roads have been 
decommissioned, hindering access. We believe that the ESA is an 
important law, and one deserving of updating in order to 
actually focus on restoration and not litigation, to provide 
our Federal land managers the tools to protect our natural 
resources from continued catastrophic wildfires.
    This updating will allow them the ability to reduce 
unnatural fuels build-up and ensure firefighters the 
opportunity to protect lives, land, and property when fires 
occur.
    In summary, our NWSA members are in place across the 
Nation, located in rural areas and ready to take on more 
projects which will impact our Nation's forests and range land 
overall health. With your oversight to make sensible changes in 
the updating of the ESA, our agency land managers can propose 
and implement projects which reduce fire severity. These 
individuals have the capability and desire and skill to rapidly 
help reduce fire risks through fuels management work, reducing 
the severity of wildfire. Your oversight and sensible updates 
to ESA can make this happen.
    Thank you, Chairman.
    [The prepared statement of Mr. Dice follows:]

   Statement of Rick Dice, President, National Wildfire Suppression 
              Association and CEO of PatRick Environmental

    Chairman Hastings, Ranking Member Markey and Committee Members, 
first I want to thank you for this opportunity to testify before the 
committee. My name is Rick Dice, and I am President of the National 
Wildfire Suppression Association as well as CEO of PatRick 
Environmental Inc. which provides fire resources to multiple federal 
and state agencies for wildland fire suppression and other emergency 
efforts.
    The National Wildfire Suppression Association (NWSA) represents 
over 250 private wildland fire service contractors who can rapidly 
deploy over 10,000 professional emergency services employees. NWSA 
fields the large 20 person firefighting crews, airplane/helicopter 
pilots, hazard tree fallers, support staff, and fire overhead 
personnel. These people put their lives on the line to assist with 
wildland fire suppression efforts as well as many other emergency 
incidents.
    Our members and my employees work under hazardous conditions of 
smoke, heat, the danger of wildland fires, the aftermath of natural 
disasters, and other emergency incidents with an army of federal, 
state, and local agency responders. When lives, wildland, and property 
are on the line government agencies must have confidence in all 
resources that are a part of the overall wildland fire suppression 
operation. Since 1991, NWSA has provided the highest levels of training 
and certification. This training meets or exceeds all federal 
requirements for our employees and the equipment we provide to 
government agencies. This enables us to work cooperatively with 
government agencies to provide the best possible fire suppression 
resources, ensuring the lowest possible risk to life and the wildland 
being protected.
    During the time we are engaged in this discussion today, NWSA 
firefighters and employees of my own company are engaged in wildland 
fire suppression efforts across the United States. This effort is being 
hindered and firefighters are exposed to more danger, because of the 
significant unnatural buildup of the forest and rangeland fuels on 
federal lands.
    This buildup of hazardous fuels is in part due to the incredibly 
cumbersome planning process our federal land mangers must now go though 
to comply with the Endangered Species Act (ESA) of 1973, the Federal 
Land Policy and Management Act (FLPMA) of 1976, and the National 
Environmental Policy Act (NEPA) of 1969. I can tell you this based on 
my experience gained working in the woods, working on wildland fires, 
and working in partnership with federal land manager across the country 
for over forty years since these laws were created.
    It is insightful to know that in the 1970's, I built my company as 
a forest fuels management business. In the initial years we treated 
fuels to help reduce the risk of wildfire, preventing insect 
infestations, and conducting restoration activities. In the early 70's, 
ninety percent of my businesses income was derived from fuels 
management and hazardous fuels reduction work. Now, in 2012, forty 
years later, ninety percent of the businesses income is derived from 
wildland fire suppression work. This is evident when you look at the 
number of fires we worked on in our first twenty years of business 
(1971-1991 only 59 fires) compared to the number we worked on in the 
last twenty years (1992-2012 a whopping 1095 fires). We once worked in 
the woods to proactively prevent and or reduce damage from wildfires, 
now we only react to these larger catastrophic wildland fires after the 
ignition occurs. These larger fires have increased in intensity, 
frequency and are well outside the historic levels both throughout the 
forest, rangeland, and forest interface areas.
    The Endangered Species Act, Federal Land Policy Management Act, and 
the National Environmental Policy Act individually provide important 
environmental safeguards. Collectively they overlap in contradictory 
ways that make it nearly impossible for the federal land managers, 
local elected officials, partnership groups, and private companies to 
navigate through the paperwork related to the laws. The result at times 
appears to be legal gridlock. These laws need to be updated in order to 
address the issues of our time. Forty years after their original 
enactment, many interpretations have been made by differing individuals 
and agencies. These issues have changed during this time and we need 
legislative tools to address today's significant environmental issues 
and continue to provide protection, meanwhile enabling our agency 
managers the ability to accomplish appropriate presuppression and 
suppression activities in our forest and rangelands. Initial attack of 
wildland fires is crucial to being able to suppress fires at the 
smallest possible acreage. The current Endangered Species Act in many 
cases affects these actions by creating obstacles which are 
counterproductive to these suppression efforts. The following incidents 
cited are examples of this:
        <bullet>  On the Bobby Creek Fire in SW Oregon the use of 
        mechanized heavy equipment was denied. There are probably many 
        reasons for this within their forest management plans which are 
        driven by the ESA.
        <bullet>  Across the nation, Water holes are not useable due to 
        ESA regulations usually involving turtles. Some sites have 
        become unusable because heavy equipment is needed to clean them 
        out and the Forests has elected not to go through the ESA and 
        NEPA process because of time and costs.
        <bullet>  Across the nation, the use of aerial delivered 
        retardant is becoming increasingly restrictive on where it can 
        be used due to agency concerns related to compliance with ESA 
        or the threat of a lawsuit because of wetlands/streams and the 
        occurrence of Threatened and Endangered (T&E) plants and animal 
        species.
        <bullet>  There have been situations where helicopters were not 
        able to dip water out of the river due to salmon. An example of 
        this was on the North Umpqua River in Douglas County during the 
        Apple fire of 2002. The alternate dip site was about a 10 
        minute flight, while the Umpqua river was in site of the fire. 
        The concern is this type of situation hinders the wildland 
        firefighter's ability to successfully suppress the fire, and 
        due to this costs are greatly increased.
    It is commonly known that wildfires, tornadoes, ice storms, insect 
infestation, and windstorms are frequent occurrences which often leave 
our national forests dying, prone to additional catastrophic events, 
and in desperate need of recovery and restoration. When unnatural 
amounts of dead and dying trees are left to lie and eventually rot in 
our federal forest lands, excessive fuel loading occurs which results 
in more intense fires with greater rates of spread and more resistance 
to control. With the current excessive fuel loadings and the intense 
wildland fires they produce detrimental effect on the health of our 
forests, the watersheds, and air quality. They also pose a 
significantly greater danger to our firefighters and the inhabitants of 
local communities, not to mention the problems posed to people far from 
the firelines with health issues related to smoke.
    We believe that the ESA is an important law and one deserving of 
updating in order to focus on restoration rather than litigation and to 
provide our federal land mangers the tools to protect our natural 
resources from continued catastrophic wildfires. This updating will 
allow them the ability to reduce the unnatural buildup of fuels and 
ensure that firefighters have the opportunity to protect lives, land, 
and property when fire occurs.
    I am not an ESA legislative expert, but I would like to suggest a 
few
    Updates to ESA that you may consider as you move forward.
    Require the science in ESA decisions to be reviewed. Call it peer-
reviewed science. It's my belief that all decisions related to ESA need 
to be reviewed by another set of competent eyes to ensure the best 
possible course of action. There are other federal laws in which the 
science is reviewed before making a decision. The Marine Mammal 
Protection Act has a review commission for all decisions made under the 
law and any government action relating to marine mammals. They also 
conduct stock assessments, review recovery plans and make 
recommendations regarding marine mammals on the ESA list of endangered 
species. The food and Drug Administration has 30 peer-review groups 
called advisory committees. I believe that the ESA would greatly 
benefit from peer review groups such as these.
    My second suggestion would be to require the secretaries 
responsible for an ESA decision to get ``boots-on-the-ground'' data 
from states and private landowners. This would assist in the making of 
more informed decisions.
    Americans consume vast amounts of wood products so it makes sense, 
to use our updated environmental laws and updated labor standards, to 
actively manage and utilize our countries own resources while using the 
best information we can get our hands on. Let's make sure that when ESA 
decides to list or delist that the decisions made are as well informed 
as possible.
    In Summary, our NWSA members are in place across the nation, 
located in rural areas and ready to take on more projects which will 
impact our Nation's forest and rangelands overall health.
    If Congress is frustrated by the current state of our federal lands 
and wants to see its health improved, and is frustrated by the courts 
and their interpretation of laws, then it is congresses responsibility 
to change the law. No one else can make this happen. With your 
oversight in making sensible changes and the updating of the ESA so 
that land managers can propose and implement projects which reduce fire 
severity. These individuals have the capability, desire and skills to 
rapidly help reduce the fire risk through fuels management work and if 
necessary suppression activities. This will help to create a healthy 
forest landscape and provide community wage jobs which support local 
economies while reducing the severity of wildfires.
    Thank you again chairman Hastings and committee members for the 
time allotted for this important presentation. The ESA laws need to be 
changed in order to combat these fires and the impact that they have on 
our forest, communities, wildlife, and their habitat. These changes and 
updates of the law will enable our forest managers to do the 
restoration efforts needed to protect the wildlife and their habitat. 
The current law allows litigation or the threat of litigation to stop 
the needed implementation of restoration projects by our land managers. 
From someone who has worked in the woods for over forty years, I thank 
you for the time to have this important discussion and I would be happy 
to take any questions.
                                 ______
                                 
    The Chairman. Thank you very much, Mr. Dice. And thank all 
of you for your testimony. We will now start the round of 
questioning, and I will recognize myself first for 5 minutes.
    A question for you, Ms. Berry. A few years ago you wrote an 
article on tribal versus Federal forest management. And you 
used an example of adjacent tribal and Forest Service lands in 
Montana. You wrote extensively about how the problems that the 
Forest Service faces with appeals and litigation impacting 
timber harvests and the risk of wildfires and insect 
infestation, and so on.
    And one of your recommendations included--and I will quote 
directly from the article--``Overhaul of the public land laws 
that are dragging down Federal land management. Reforms should 
be directed at making national forests less vulnerable to 
seemingly endless litigation.''
    Now, I noted that you did not include any of that in your 
written testimony. So I guess my question to you, since you 
wrote that several years ago, do you still feel that that 
reform is necessary?
    Ms. Berry. Thank you for the question, Mr. Chairman. Yes, 
to answer your question, I feel that there are many factors 
affecting the fire issue. That particular report was focused on 
a comparison of Federal versus tribal lands. And my work today 
focuses more specifically on Federal lands in general, and the 
issues of placing people and property at risk on the edge of 
these forested areas.
    There is a need for Federal reform, I do feel, in Federal 
wildland fire policy management in order to reduce risk to 
people and property. And I do think that there are lessons to 
be learned from collaborations and from interaction with 
tribal, State forests, and local governments.
    So, I do think that there--I do still continue to feel that 
there is a potential need for Federal reform for----
    The Chairman. So you stand by that statement that you wrote 
in that article?
    Ms. Berry. I do.
    The Chairman. Well, let me just follow up then, again, in 
that same article. You stated--and I will again quote--
``Decreased timber harvests limit the ability to address 
ecological problems.'' And then, further, I quote again, ``As a 
result, these forests are at a higher risk of catastrophic 
wildfire and insect infestation.''
    So, this issue again was not addressed in your written 
statement, you know, in front of us today. But I just wonder if 
you still feel the same with that statement that you wrote 3 
years ago.
    Ms. Berry. I would note with that particular statement, 
that it focuses on a particular forested ecosystem in 
northwestern Montana. And so, throughout our country we can 
expect to see a range of various ecological situations that 
necessitated different types of management on those forests 
with respect to timber harvest.
    The Chairman. Right, so--and that is one of the things we 
are trying to explore today. There are different ways to do it. 
But the point is you should have active management. I don't 
want to put words in your mouth, but you should have an active 
management in how you manage your forests. Is that a fair 
statement?
    Ms. Berry. Yes. I do agree with that.
    The Chairman. Last question, and this will be for Mr. Dice 
and Mr. Crapser. Last December the Forest Service issued a new 
policy that restricts dropping of aerial fuel retardant in 
areas that are mapped avoidance areas for threatened, 
endangered, proposed candidate, or sensitive species. What 
would be the impact on firefighting efforts? And I will start 
with you, Mr. Dice.
    Mr. Dice. Well, the impact is the fires will get bigger. 
That is pretty simple. If you remove retardant aircraft and 
some of the retardant, fires are just going to get bigger, and 
there is going to be more megafires.
    The Chairman. Mr. Crapser?
    Mr. Crapser. Mr. Chairman, I concur with Mr. Dice. We also 
have an issue of young type-4 IC's out there, Incident 
Commanders, trying to figure out maps, as far as where they can 
dump retardant, where they can't.
    We also have an issue of competing endangered species, if 
you will. I understand the ruling, I understand the concern 
about putting retardant in waterways. When you are dealing in 
sage grouse core areas with waterways in them, sometimes you 
have to pick which endangered species or which proposed 
endangered species that you are going to deal with in a certain 
instance.
    The Chairman. Thank you both for that. And again, this is 
just one example of why we are having this hearing, and how it 
interacts with the Endangered Species Act. So thank you very 
much.
    With that, my time has expired, and I recognize the 
gentleman from Arizona, Mr. Grijalva.
    Mr. Grijalva. Thank you, sir. I appreciate it, Mr. 
Chairman.
    Ms. Berry, what are some of the contributing circumstances 
that are leading to the large wildfires that we have been 
experiencing lately?
    Ms. Berry. Well, as I mentioned in my discussion, fire is a 
natural part of most forest ecosystems in our country. And we 
have seen larger fires this year and over the last decade 
associated with high temperatures and widespread droughts. And 
we can expect that to increase with warming climates that are 
predicted as a result of climate change.
    Mr. Grijalva. And if I may, Ms. Berry, what role does 
funding at the State and at the Federal level play in wildfire 
preparation and the mitigation that should follow? Would 
increased resources for fuel treatments and fuel reduction in 
the--particularly in the Wildland/Urban Interface reduce the 
damage that we are seeing right now from wildfires?
    Ms. Berry. I would say yes. And I think it is important to 
focus that funding for fuels treatments, both mechanical 
removal of fuels and prescribed burning in those Wildland/Urban 
Interface areas. Research shows that beyond a very small radius 
outside of Wildland/Urban Interface, fuels reduction treatments 
do little to reduce risks of ignition. So those resources 
should really be funneled to those highest risk areas.
    Mr. Grijalva. OK, thank you. Mr. Crapser, often the 
prescribed burns that are not conducted in this Wildland/Urban 
Interface, due to the fear that the fires will get out of 
control and they will spread into those communities, is it 
accurate to say that prescribed burns are not conducted as 
often or where they should be because of safety concerns, as 
was stated in the other testimony with this larger population 
growth and larger population living in that interface area?
    Mr. Crapser. Congressman, I think the key is active 
management. In my mind, prescribed fire is appropriate active 
management. Prescribed fire is active management. And picking 
the spots where prescribed fire will do good, where you can 
make a difference, I think, is the important part.
    Yes, there is a concern in a lot of urban interface about 
the prescribed fires. I think having the right window, the 
right burning window, and combining that prescribed fire with 
maybe----
    Mr. Grijalva. There has been a reduction in those 
prescribed fires, particularly in that interface area.
    Mr. Crapser. Yes, sir. I think there probably--say maybe a 
secondary choice, for lack of a better term, because of some 
safety concerns.
    Mr. Grijalva. Thank you. Again, sir, if I may, do you agree 
that the current drought, the insects infestation, the high 
winds attribute to the unusually high amount of wildfire we are 
seeing this season?
    Mr. Crapser. Yes, sir, they do. We have seen record 
ignitability percentiles and very bizarre fire behavior, 
because of the dryness of the fuels and the amount of fuels on 
the ground.
    Mr. Grijalva. Would you agree that these weather anomalies 
are related to climate change?
    Mr. Crapser. You know, sir, you can call it climate change, 
you can call it long-term drought. I do agree that it is really 
dry out there, and we have very low fuel moistures.
    Mr. Grijalva. Let me follow up with--within this report, 
the document on recommendations and guidance for addressing 
climate change, that I believe you participated in--and some of 
the recommendations are included in the Farm bill that is held 
up right now--that report said that your organization supported 
robust accounting methodology, legislation, and rulemaking that 
defines forestry carbon offsets. How has that been working?
    Mr. Crapser. Congressman, I think--how has it been working? 
Probably not very well so far, as far as trying to identify 
carbon offsets. Things have to have value to be able to be 
traded. And there are some real questions, I think, on the 
long-term value of carbon offsets.
    Mr. Grijalva. Thank you. I have some questions for the 
other witnesses, but I will wait for the next round. Thank you.
    The Chairman. I thank the gentleman. The Chair recognizes 
the gentleman from Colorado, Mr. Lamborn.
    Mr. Lamborn. Thank you, Mr. Chairman. This is for Mr. 
Lopez, Mr. Crapser, or Mr. Dice. I realize that there may be 
multiple factors that contribute to a particular catastrophic 
wildfire, such as the recent Waldo Canyon fire in my district. 
But would you agree that lawsuits brought by environmentalists 
based on the Endangered Species Act have slowed down, or even 
stopped the clearing of hazardous fuel loads in our national 
forests?
    Mr. Lopez. Mr. Chairman, Congressman, I believe that is the 
case. We have seen that in New Mexico many times. And you know, 
if the Forest Service is planning to do something and then they 
are stopped by lawsuits, you know, obviously that slows the 
time that they have to go through their process. And after some 
years they start questioning whether they are actually going to 
get anything through or not, so they tend to react by planning 
less. That is what I believe, and basically, that is what I 
have seen.
    Mr. Crapser. Congressman, I think I would concur. I think 
it is the fear of lawsuits that have probably had a larger 
impact than the actual lawsuits, themselves.
    Mr. Dice. And I would concur, also. And it is not just in 
New Mexico, it is across the United States in almost every 
State that the same things are happening, which, you know, 
people--employees and so forth of the agencies are fearful of 
the litigation. So a lot of the time those are just stopped.
    Mr. Lamborn. Well, thank you. And for the same three 
witnesses, based on your expert opinion, what are some 
suggested ways to reduce the impact of litigation that slows 
down the removal of hazardous fuel loads?
    Mr. Lopez. Mr. Chairman, Congressman, I believe, as I said 
earlier, that we need to be more proactive in our management. 
And to do that we need to streamline the process by which we 
are able to do those things.
    You know, the lawsuits that have come over time have made 
the situation so complex that there is no clear path to move 
forward. And that is why I think we need to streamline the 
process, so that we all are on the same page. We need to start 
over again, and we need to do it so that everybody is able to 
do something in a reasonable amount of time. Otherwise, we are 
just going to lose our forests, totally.
    Mr. Crapser. Congressman, as a State forester that works 
closely with the Forest Service on a lot of projects, I would 
say three things: full use of the Healthy Forest Restoration 
Act authorities; an expansion and extension of stewardship 
contracting and agreement authorities; and instituting good 
neighbor authority across the western United States.
    Mr. Lamborn. OK.
    Mr. Dice. Congressman, I agree. I couldn't add too much to 
that. That is pretty good.
    Mr. Lamborn. OK, thank you. And for the same witnesses, 
does the lack of clearing and reducing the fuel load contribute 
to a less healthy forest, which in turn leads to beetle 
infestation? Do you see a connection there?
    Mr. Lopez. Mr. Chairman, Congressman, I believe that there 
is a connection. The fact of the matter is that our forests are 
too fuel-laden. And obviously, that creates trees that are not 
normal in size, and therefore, very weak. And that also 
increases the amount of insect damage that the trees are prone 
to. And so, yes, I think that that is the case.
    Mr. Crapser. Congressman, the problem with terms, in my 
mind, like ``healthy forest'' is it is kind of like beauty; it 
is in the eye of the beholder. I think we have overstocked 
forests out there. There is a myriad of reasons why. I am 
probably an old-school forester that feels that you can use 
management that replicates fire on the landscape, and that 
active management is a good thing.
    Mr. Dice. Again, I can't add too much to that. That is 
pretty good.
    Mr. Lamborn. Well, I will finish with a comment. And my 
hope is that we can concentrate on proactive measures we can do 
here and now, as opposed to things that, at best, are going to 
take decades or centuries, like reducing carbon dioxide in the 
atmosphere.
    I would like to see things that we can do this year and 
next year to make a big difference. And I also hope to hear 
from my colleague from Colorado, Representative Tipton, more 
about his legislation--when we get to his questions--which I am 
a cosponsor of.
    Thank you, Mr. Chairman, and I yield back.
    The Chairman. I thank the gentleman for his questions, and 
the Chair recognizes the gentleman from New Mexico, Mr. Lujan.
    Mr. Lujan. Mr. Chairman, thank you very much. And I think 
it is clear that during these times of drought and fire, that 
we need to make sure that communities and firefighters have the 
resources they need to combat these natural disasters.
    With the West already experiencing a historic fire season, 
it is critical that we pass common sense legislation to address 
the issues of fire risk, fire suppression, and rehabilitation, 
and one that can pass not only this chamber, but the chamber 
across the way, and get to the President for signature so that 
we can see benefits short-term. That way we don't get into 
these political fights about one way or the other.
    I think especially it is good to see that we are having 
more hearings on fire suppression, that we are talking about 
this, that we understand the importance of mitigating these 
risks, but that we come together to be able to get something 
that can pass both chambers and get to the President.
    With that being said, Mr. Chairman, does anyone on the 
panel support the ability of the U.S. Forest Service and the 
BLM to enter into contracts with public and private partners to 
complete projects that include restoration work, fire fuels 
reduction, and clearing of overgrowth on snowpack watersheds?
    And I would say we can start with you, Mr. Lopez.
    Mr. Lopez. Mr. Chairman, Congressman Lujan, yes, I do agree 
that that is something that we should be doing. I believe that 
part of that would be expanding the Good Neighbor Authority to 
all 50 States. And that way, especially in the West, we could 
be more proactive in managing our watersheds.
    Mr. Lujan. Mr. Crapser?
    Mr. Crapser. Mr. Chairman, Congressman, I believe, along 
with Good Neighbor Authority, having stewardship authority, 
stewardship contracting, and stewardship agreement authority 
would allow the agencies to enter those type of agreements and 
focus some efforts in areas where they may do some good.
    Mr. Lujan. Ms. Berry?
    Ms. Berry. I would agree. We have seen some good--we have 
some good examples of success in managing watersheds 
collaboratively from Santa Fe, New Mexico, as well as in the 
Denver area. I think that that helps from a forestry 
standpoint, a community standpoint, local governments, and 
Federal Governments, as well.
    Mr. Lujan. Thank you. Mr. Dice?
    Mr. Dice. Congressman, I think we should be using every 
tool in our toolbox to reduce fuels wherever they are across 
the United States.
    Mr. Lujan. I mean I think the next question was answered 
with several of your responses, but I am going to ask it. 
Stewardship, the end result is contracting promotes sustainable 
natural resource management that improve land conditions, 
including fire fuels reduction and forest thinning projects 
which help protect our forests from wildfires. As an added 
benefit to local communities, stewardship contracting 
encourages a closer working relationship between rural 
communities and Federal agencies by promoting economic 
development through contract opportunities.
    Do you all agree that these types of cooperative 
relationships between agencies and communities would be 
beneficial?
    Mr. Lopez. Mr. Chairman, Congressman Lujan, I certainly do, 
and there is two other examples. We have the CFLRP, which are 
the landscape projects, and the CFRPs in New Mexico. And those 
programs have gone a long way to help to start to be proactive 
and----
    Mr. Lujan. I appreciate that.
    Mr. Crapser. Mr. Congressman, at the risk of not sounding 
like a bureaucrat, I will just say yes.
    Mr. Lujan. Thank you. I appreciate that.
    Ms. Berry. And we support stewardship contracting, as well. 
It is a great collaborative effort between governments and 
communities.
    Mr. Lujan. Thank you. Mr. Dice?
    Mr. Dice. I will just have to say yes, too.
    Mr. Lujan. I appreciate that very much. And, Mr. Chairman, 
we had a hearing here on an amendment offered by myself, which 
would have extended a program at the end of this calendar year. 
And there was a lot of conversation that, if I would be willing 
to withdraw that amendment and work with my colleague from 
Arizona, Mr. Gosar, and find a 10-year extension, as opposed to 
a permanent extension--although I still believe we should do 
this permanently, to give this authority to these Federal 
agencies to move this forward, that we should get it done.
    And I am hoping, Mr. Chairman, that there are two pieces of 
legislation currently before this body that have that language 
in there. We have a diverse panel, and I am glad to see the 
strong support from everyone with this common-sense approach, 
and see how we can growth with that.
    Last, you know, as we talk about the management of our 
lands--Mr. Valera Lopez, I appreciate you talking about land 
and water conservation organizations, we need to protect our 
watersheds. And there may be some disagreement with some folks 
out there associated with how we can use that funding to better 
look after our water resources. I know where we come from. If 
we don't have water, we don't have anything. If we don't have 
water up in those mountains, our acequias aren't going to run, 
our cattle aren't going to drink, our forests aren't going to 
grow. And therein lies another responsibility.
    I believe it is in everyone's best interest to manage our 
public lands. If we don't do so, we don't get adequate snowfall 
coverage, we don't get adequate recharge to the aquifer. We 
don't get adequate growth in those grasses that hold the runoff 
and cause devastation.
    And so, Mr. Chairman, I am certainly hopeful that we can 
get this done together, and that some of these common-sense 
approaches that have been asked for consideration get their due 
diligence. So thank you very much, Mr. Chairman. I yield back 
my time.
    The Chairman. The time of the gentleman has expired. The 
Chair recognizes the gentleman from Michigan, Mr. Benishek.
    Dr. Benishek. Thank you, Mr. Chairman.
    Thanks for coming in today. I really appreciate your 
testimony. I represent Michigan's first district, and we 
recently had a forest fire as well. It is a little bit 
different than out West. But, you know, there were some 
challenges that we face, too, simply because we don't have a 
history of those large fires, and that we had to import a lot 
of the equipment from all over the place.
    According to the Forest Service, some forest areas are now 
more dense than they were at the turn of the 20th century, 
leaving them more susceptible to disease and drought, and 
creating large amounts of fuel for catastrophic wildfires.
    Mr. Dice, Mr. Crapser, if we had a blank slate, what kind 
of a Federal forest management policy do you think would be the 
best thing to do to minimize this potential for wildfire and to 
balance the needs for environmental concerns? Mr. Dice?
    Mr. Dice. Mr. Chairman, Congressman, rarely is a forester 
offered a blank slate. I think the first thing we need to do 
is--I look at a lot of our natural resource management in this 
country as kind of the five stages of grief: something changes 
and we deny it, then we get mad about it, then we try to 
bargain our way out of it, then we are in depression, then we 
finally accept it.
    I think the first thing we need to do as a Nation, as a 
natural resource group, is accept where we are at, and quit 
pointing fingers on how we got here, and look at the future, 
look at the fact we have 300 million people in the country, we 
are not going to get to pre-settlement conditions, and look at 
where we are at, how do we move forward.
    My belief--as I said earlier, I am an old-school forester. 
And my belief is active management can replicate fire across 
many landscapes, that we can put both management and fire back 
on the landscape, and deal with the people in the interface and 
make it happen. Maybe I have been--I am still an optimist, even 
though I have been doing this a long time, and I think that is 
the way we have to move forward with collaborative projects, 
where we can actually work together, instead of beating on each 
other.
    Dr. Benishek. OK. Let me ask another question. Mr. Crapser, 
in your written testimony you point out that the Western 
Governors Association recently issued a policy resolution that, 
among other things, stated that the health of the national 
forests and ranger lands has deteriorated due to a reduction in 
management. What do you mean by reduction in management?
    Mr. Crapser. Mr. Chairman, Congressman, if you look at 
active management across Federal landscapes, there has been a 
reduction over the last 15 years, as far as acres treated.
    You know, we talk a lot about the 100 years of fire 
suppression. We have been doing a good job of suppressing fire. 
Part of the reason fire suppression started was because we were 
going to actively manage our forests for goods and products, 
and replicate fire on the landscape. Over the last 15 or 20 
years, there has been a vast reduction of that.
    In 1985, the Forest Service harvested, I believe, 11 
billion board feet off national forest lands. Last year I 
believe it was, like, 1.2 or 1.3 billion. So there has been a 
huge reduction. I am not saying we should go back to 11 billion 
board feet, but we have to look at some place that is 
meaningful management for the type of fuels that are out there.
    Dr. Benishek. Let me ask another question. Can you estimate 
the amount of time that the forestry officials spend dealing 
with and preparing for litigation and other regulatory 
processes, compared to the amount of time they spend on caring 
for forests?
    Mr. Crapser. Mr. Chairman, Congressman, I don't work for 
the Federal Government, so anything I see is anecdotal. But we 
spend an awful lot of time working with them on planning 
meetings, more than we do on operational type meetings any 
more.
    Dr. Benishek. Thank you. Mr. Dice, in your testimony you 
mention that the nature of your business has shifted from 
management of the forest to now you are working mostly on 
fighting fires. What do you think the primary reason for the 
shift in Federal forest management policy is?
    Mr. Dice. Well, the shift is because they don't have the 
money to do the fuels reduction work which we used to support 
with timber sales. And that is where, for many years, 20 years, 
that is how we built our business, on clean-up of the forest. 
And it was paid for by the timber sales, so forth, throughout 
the United States.
    The Chairman. The time of the gentleman----
    Dr. Benishek. I think my time is up.
    The Chairman. Yes. The time of the gentleman has expired. 
The Chair recognizes the gentleman from New York, Mr. Tonko.
    Mr. Tonko. Ms. Berry, do communities in the Wildland/Urban 
Interface have zoning or building codes that reflect a 
potential risk of fire?
    Ms. Berry. In most cases, no, particularly in the West, 
which is where I am most familiar with. There are a few--a 
handful of examples where communities have enacted sort of code 
regulations. But very few have any type of zoning issues 
revolving around wildfire risk.
    Mr. Tonko. Is there anything that could encourage a better 
outcome there?
    Ms. Berry. I think that there is, there is a lot of things. 
And the first step, really, is identifying the most wildfire-
prone areas. There is a highest risk. And that is something I 
tried to mention in my remarks about mapping. I think we need 
fine-scale, high-resolution maps that incorporate information 
on fuels, fire patterns, historic weather patterns, and slope, 
and these types of things. And that will help local communities 
know where they need these types of regulations, as far as 
managing growth in these areas.
    Mr. Tonko. Thank you. And, Mr. Crapser, I am looking at 
estimates that indicate a huge amount of ownership in these 
Wildland/Urban Interface land areas, as privately held. A 
national statistic has it very lopsided, but I would think 
there is still a huge investment of private land that we are 
looking at. That leaves a lot of private land that needs to be 
considered in any fire management plan. I know that we were 
discussing some of the efforts with State and Federal land 
managers. Can you better develop for me the programs that are 
in place that would encourage private land owners to work with 
State and Federal land managers, so that we can avoid what 
could be a patchwork approach, or is a patchwork approach?
    Mr. Crapser. Mr. Chairman, Congressman, the States--I think 
nationally, but I know in the West--have developed community 
wildfire protection plans with all the communities. In Wyoming, 
we have one in every county. It covers every community. It 
talks about fire-wise, defensible space, that sort of thing. We 
utilize the State fire assistance program to do fuels 
treatments with land owners. We also utilize assistance. We 
spend--probably 40 percent of my agency's time is doing land 
owner assistance, talking to land owners, working with them as 
far as how to make their home more defensible, how to make 
their communities more defensible, and planning for that.
    Mr. Tonko. And when we look at the U.S. Forest Service 
budget, my understanding is that funding has been flat, or in 
fact, declining in recent years, while the cost of firefighting 
perhaps has been increasing. Are there any adjustments that you 
have witnessed from State budgets for these activities? And is 
there any way that you imagine we can fill the gaps that we 
have experienced?
    Mr. Crapser. Mr. Chairman, Congressman, I probably would be 
a very poor government agency head if I said that I had enough 
money. You never have enough money. However, we have tried to 
work with counties--given the budget picture both at Federal 
and State level, we have tried to work a lot closer with 
counties and communities to take a lot of the responsibility 
for their own areas on themselves.
    Mr. Tonko. All the statistics--and for anyone who wants to 
answer this--all the statistics indicate that there has been a 
lot of housing development in the Wildland/Urban Interface in 
recent decades. I imagine one of the attractions for people 
choosing to live in these areas is the proximity to the forest. 
Is there a reluctance on the part of homeowners to do the type 
of landscaping and management of forests close to their 
property that would decrease their risk of losing their home to 
fire?
    Ms. Berry. Well, I would just say that a lot of homeowners 
in the Wildland/Urban Interface are not aware of the risk of 
fire, particularly because it is perceived as a Federal issue, 
and not so much as a private--issue of a private landowner. So 
in some sense there is a big educational component that needs 
to happen.
    Mr. Crapser. Congressman, even with the education we do, 
and assistance, I would say it is a mixed bag. A lot of land 
owners are very willing and active to try to do defensible 
space, and to work with doing things around their home. Some 
aren't, because they moved there so they could have trees 
hanging over their houses.
    I will say this summer, with the fire season we have had, 
we have been inundated by calls from people wanting us to come 
out and work with them on looking toward future years.
    Mr. Tonko. Thank you. Anyone else?
    The Chairman. The time of the gentleman has expired.
    Mr. Tonko. Thank you, Mr. Chair.
    The Chairman. The Chair recognizes the gentleman from South 
Carolina, Mr. Duncan.
    Mr. Duncan of South Carolina. Thank you, Mr. Chairman. You 
know, following best management practices for the timber 
industry for quite a while, we have the Sumter National Forest 
in my district, and we constantly have complaints from local 
citizens when the United States Forest Service does control 
burns, prescribed burning which, basically, does away with a 
lot of that tinder that causes wildfires. And it is the right 
thing to do for best management practices.
    But then, just recently, in 2009, down in Myrtle Beach in 
South Carolina, the largest forest fire in a generation in 
South Carolina burned 19,000 acres, $20 million in damage, 76 
homes destroyed, another 96 damaged in some way. And the reason 
why that fire was so--of such great magnitude was because the 
residents in that area basically complained about prescribed 
burning that had been done in the past. And so, for a period of 
time, no prescribed burning was done. And once the fire 
started, it spread like crazy, jumping a six-lane highway, 
because it was raging so much. There was so much tinder 
available.
    I just make that point because I think in our country we 
have definitely got to get back to best management practices 
with regard to managing the United States forest lands, but 
also allowing timber sales that were a ready, available thing 
for a very, very long time. But we have talked in this 
Committee many times about what the environmental policies that 
were put in place during the late--well, mid-1990s forward, 
that decimated the timber industry in the Northwest. My 
brother-in-law lives in Northwest Montana, and I saw what the 
lack of timber sales and the Spotted Owl rush and everything 
did to the timber industry. And so, because of that, we have 
seen the lack of timber sales, the lack of what I call best 
management practices for managing our timber, and we have seen 
resulting huge wildfires. And so, I just bring that up as a 
matter of importance to me.
    I want to ask, I guess, Mr. Dice. Environmental groups file 
lawsuit after lawsuit--by some counts, a dozen within the last 
few years--to block timber sales. For example, the California 
Forestry Association stated that in one county 
environmentalists filed more than 50 appeals to block thinning 
projects planned as part of legislation to protect the Northern 
Spotted Owl habitat that was destroyed by a major fire.
    So, in your opinion, what are thinning and removal of dead 
trees following a wildfire--why are they important for species 
and forest health?
    Mr. Dice. Well, any time you reduce dead and dying fuels in 
the forest, it is going to reduce the intensity of fires. And 
so, that is just a given. Always.
    So I did want to speak about the smoke you talked about in 
fires in, like, South Carolina, and smoke management. You know, 
if we inform the public how much good that does, and if we did 
some kind of news broadcast and so forth, and inform the 
public, I think we would get a lot less resistance to that. The 
problem is we haven't been doing a very good job of that the 
last 30 years. We used to do that, you know. Thirty years ago 
we did let the people know that we were doing prescribed 
burning, and what that saved, you know, homes and everything 
else, down the road. So I don't think we have been doing a good 
job of that, and it would be nice to see that.
    Mr. Duncan of South Carolina. Don't you think that in these 
urban areas, where the forest land bumps up to urban areas, you 
know, with a little bit of public awareness campaigns about 
what that smoke means during prescribed burning would go a long 
way toward saving the potential forest fires that destroy 
homes, and destroy, as we saw in Colorado, almost destroyed a 
very valuable asset as it approached the Air Force Academy? So, 
I think prescribed burning and best management practices are 
the right thing.
    Mr. Crapser, can you talk about the importance of reducing 
fuels outside the Wildland/Urban Interface?
    Mr. Crapser. Mr. Chairman, Congressman, I think we have to 
look at a holistic--I hate that word, I am sorry--an overall 
picture of how we manage our forest, and how we do things. Just 
focusing on the Wildland Interface, while it is important, and 
it is always the most immediate place to look, really doesn't 
deal with the watersheds, doesn't deal with the widespread 
habitat issues, soil movements, landslides, that sort of thing. 
You have to look at the entire forest. As the old saying goes, 
you have to see the forest through the trees.
    Mr. Duncan of South Carolina. Thank you, Mr. Chairman. I 
yield----
    The Chairman. The time of the gentleman has expired. The 
Chair recognizes the gentleman from New Jersey, Mr. Holt.
    Dr. Holt. Thank you, Mr. Chairman. Mr. Crapser, something 
you said in response to Mr. Grijalva's questioning caught my 
ear. You seem to be avoiding the use of the phrase ``climate 
change.'' And you said you could call it real drought or 
prolonged drought. Were you deliberating avoiding the use of 
the phrase ``climate change''? Does this suggest that you 
either think it is not happening, or that it is not relevant, 
or that there is nothing we can do about it?
    Mr. Crapser. Mr. Chairman, Congressman, I believe there is 
something happening with the climate. We are seeing climate 
change, we are seeing warming trends. I think there is a lot of 
debate over the root causes, and what can be done about it. I 
think it is important that we are talking about climate change. 
I didn't mean to not use the term. Trying to focus on fire. We 
are more of an immediate mind set, and we talk about drought. I 
think it is there. But I----
    Dr. Holt. In 2010, your Council, the Council of Western 
State Foresters, wrote a report entitled, ``Western Forests: 
Recommendations and Guidance for Addressing Climate Change.'' 
It included a key statement. For example, ``Forests are already 
facing impacts associating with the changing climate.'' Do you 
endorse this report still?
    Mr. Crapser. Yes, sir.
    Dr. Holt. OK. Well, thank you. I--you know, as we debate 
timber management and thinning and fuel reduction and 
responsible development patterns and bark beetle control and 
aggressive cutting or clear cutting or permitted or prescribed 
burns, we are not really getting at the heart of the problem. 
And, you know, as a scientist, I always like to go to the 
fundamentals first, and look at principal causes. I think we 
really have to follow the evidence, and listen to scientists, 
the propensity of scientific conclusions, not ideological 
outliers or deliberate obfuscators.
    Ms. Berry, are warming temperatures pushing droughts to the 
extreme, causing snowpacks to melt earlier, preventing pine 
beetles from being killed off in cold winters?
    Ms. Berry. Yes. The research indicates that warming 
temperatures are increasingly resulting in widespread droughts. 
And that does affect the bark beetles----
    Dr. Holt. And do these factors contribute to increasing 
risk of catastrophic wildfires?
    Ms. Berry. Yes, they do.
    Dr. Holt. You know, I hope this Committee can focus on ways 
to get communities the resources they need to protect 
themselves from fires, and that we have--that we establish good 
policies of timber management. But we mustn't ignore the root 
causes here. And a bigger cause than fuel buildup, a bigger 
cause than housing development is what is happening to our very 
climate. And we can't--it is the elephant in the room that we 
should not be avoiding and talking around.
    Just to make another point that I would like to get in the 
record, my--some of my colleagues here today seem to be blaming 
citizens for participating in democracy as the cause of 
catastrophic wildfires, that somehow people are causing forests 
to turn into tinder boxes because they want our Federal 
agencies to protect the air and the water and the wildlife. The 
Minority staff produced a report called ``Dousing the Claims'' 
that shows this is not the case. The report shows that appeals 
and litigation, including those related to the protection of 
species on the brink of extinction, have almost no impact on 
projects to thin forests.
    So, I would--there isn't a lot of time to explore this. I 
hope in subsequent questioning we can get--elicit from the 
witnesses specifics about whether and in what way these 
appeals, this litigation, these enforcement of regulations are 
actually causing the problem. Because this report is pretty 
clear that they are not. I thank the Chair.
    The Chairman. The time of the gentleman has expired. The 
Chair recognizes the gentleman from Colorado, Mr. Tipton.
    Mr. Tipton. Thank you, Mr. Chairman. I would like to thank 
our panel for taking the time to be able to be here. I have a 
district that butts up right against Mr. Valera Lopez in 
Colorado. And a lot of the concerns that you have expressed are 
the same issues that we are facing.
    As I toured in the San Juan National Forest not long ago, I 
was with a forest ranger from the National Forest Service. And 
he said, ``We are actually paying the price for poor management 
in our forests.'' He was pointing out overgrowth, species that 
should not be growing at those elevations that would have 
typically burned out if we had had better management practice, 
and allowed even natural fires to be able to go through in the 
past, impacting water, as well.
    Would it be accurate, Mr. Crapser, to be able to say that 
when we go in and have proper forest management, that we 
actually increase the water table, create healthier forests, 
healthier trees, that are not going to be as subject to bark 
beetle infestation, as we have seen in the West?
    Mr. Crapser. Mr. Chairman, Congressman, I think we can 
utilize forest management to improve watersheds, to improve 
habitat. And again, it gets back to the balance, and trying to 
strike where your management objectives are, what you are 
trying to do. But, yes, I think you can do great things for 
watersheds and habitat with management.
    Mr. Tipton. I appreciate that. And one thing I--listening 
to the testimony that has gone through here has been a fear of 
lawsuits to be able to go in and actually do forest management, 
to be able to protect forests, to, as you just noted, increase 
water table in order to be able to create actual healthy 
forests going on. Do you have any estimate, in terms of what 
this litigation is really costing?
    Mr. Crapser. Mr. Chairman, Congressman, I really can't 
answer that question. I am not an expert on the Forest 
Service's litigation bill. And really, would just be guessing, 
anything I would have.
    Mr. Tipton. Is it significant?
    Mr. Crapser. I think it is significant. As I said earlier, 
I think the fear of litigation sometimes is a bigger impact 
than litigation itself.
    Mr. Tipton. You know, you and Mr. Dice both pointed to the 
fear of litigation. And I think many of us are frustrated that 
we have those who want to make it one side or the other. You 
know, in Colorado--I bet in New Mexico, Montana, Wyoming, as we 
go through our States--I see nothing but environmentalists in 
every State, people that want clean water, want healthy 
forests, and want common sense, as well.
    You know, we just recently had a comment that came out from 
a lady named Kieran Suckling, Executive Director for the Center 
for Biological Diversity. And I would just like to read this. 
And if you can, just quickly respond to that. She stated, 
``When we stop the same timber sale three or four times 
running, the timber planters want to tear their hair out. They 
feel that their careers are being mocked and destroyed. And 
they are. So they become more willing to play by our rules and 
at least get something done. Psychological warfare is a very 
underappreciated aspect of environmental campaigning.''
    Should we be playing games, or should we be addressing 
actual causes right now that are burning homes in my fellow 
congressmen's districts, taking lives? When we look at one of 
the fires in Colorado, we are seeing ash now going into the 
river that is hurting endangered species. We are destroying 
habitat in the De Beque fire when we are talking about the sage 
grouse. There is no habitat left. And, in fact, the BLM 
expressed to me they are worried that that land was sterilized 
because of the heat of that fire.
    Should we be playing games with litigation? Or should we be 
standing up for creating a healthy forest, a healthy 
environment, for not only those species, but for the people who 
are relying on that drinking water, as well? Mr. Valera Lopez, 
do you have a comment?
    Mr. Lopez. Mr. Chairman, Congressman Tipton, I believe that 
we should not be playing games. We got in this situation from 
the games that we have been playing for a long time, and that 
is why I talked about streamlining the process, so that we 
could avoid the litigation that is happening right now. We need 
to be proactive. We don't have time to play games.
    And, you know, I have seen the impacts of everything that 
you are talking about in New Mexico. In fact, the Gila Trout, 
and the other endangered species in the Gila National Forest 
this year from the Whitewater/Baldy fire have been taken out 
because they are trying to save them, because the streams are--
--
    Mr. Tipton. I am running out of time, and I would really 
encourage you--we have legislation in place right now, the 
Health Forest Management Act of 2012, to be able to use the 
HFRA authorities to be able to reduce that litigation that is 
going on, to be able to get our States involved once again back 
into the process through our county commissioners, through our 
Governors, through the people who live there, work there, and 
love the land, to be able to bring some common sense to that 
solution.
    So, I thank you all for being here, and thank you for your 
time. I yield back, Mr. Chairman.
    The Chairman. The time of the gentleman has expired. The 
Chair recognizes the gentlelady from California, Mrs. 
Napolitano.
    Mrs. Napolitano. Well, thank you, Mr. Chair. And I am 
listening with great intent on this. Since I am the Ranking 
Member of the Subcommittee on Water and Power, and before that 
the Chair, I was able to go to Western Power Administration 
offices and take a helicopter over much of the land and saw the 
devastated forest, all the brown forest for miles and miles and 
miles.
    Questions began to arise as, of course, as you have heard, 
there is drought coming our way. It is continuing to get worse. 
So how are we preparing for that, number one? And how are we 
having the agencies work together with the growers, with the 
cattlemen, with the local entities to be able to ensure that we 
are able to take some of those dead trees to prevent more of 
this lightning-struck fire started in many areas, because that 
is going to happen again and again.
    And you are right, it is something that is of great 
concern, that the pine beetle continues to flourish because 
there are no harder winters, or at least longer winters that 
kill.
    But there was a question at the time as to whether or not 
the clearing of the right of way was an issue, because that--if 
any of those poles were to fall, they would immediately start a 
fire. And there was a question about allowing that to happen. 
And I am not sure whether you are involved in that.
    But that comes to Mr. Crapser. What, if anything, is the 
Council of the Western State Foresters done related to thinning 
to protect the transmission line infrastructures? Are you 
working with the PMAs?
    Mr. Crapser. Mr. Chairman, Congresswoman, from the Council 
perspective, it is an association of the state foresters. I 
know individually, all the state foresters have been working 
very closely with power line companies, with power line 
authorities in their States on that issue, because it continues 
to be a big issue. We have had that issue in Wyoming, as far 
as----
    Mrs. Napolitano. Well, what is being done, sir?
    Mr. Crapser. What is being done? We are working with the 
Forest Service and the power line companies to try to get some 
agreements, so they can thin their power lines, so they can 
cut----
    Mrs. Napolitano. And the biggest impediment to that would 
be what?
    Mr. Crapser. The biggest impediment to that is Forest 
Service rules, as far as how they can allow things to happen--
--
    Mrs. Napolitano. What about budget? What about budget?
    Mr. Crapser. I think on that particular note, budget is 
probably not as big an issue as just getting out there and 
getting it done. But it all plays part and parcel in the same 
game.
    Mrs. Napolitano. Mr. Chairman, I would like to have any 
kind of report come to this Committee on regard to what they 
are doing to be able to ensure the protection of the 
infrastructure.
    The Chairman. I think that would be good information to 
have, obviously. So we would look forward to that.
    Mrs. Napolitano. Thank you, sir. To me, budget, we have 
always been reducing the budgets to be able to allow more 
investigation of the areas that need prioritizing to try to 
prevent some of this.
    And to my colleague on the other side, fires do allow 
reseeding, because it pops open the seed and eventually it 
reforests itself. But that takes decades to do, or at least 
many years.
    My concern has been with the cost of the fire suppression 
over--$1.4 billion over the 4 years. And after the budget is 
decreased by $100,000 over the past 2 years, would you not 
agree it is in the Nation's best interests to build on the 
Federal investment, rather than cuts? And could the Federal 
funds be recouped?
    [No response.]
    Mrs. Napolitano. Anybody?
    Mr. Crapser. Congresswoman, I am not exactly sure I 
understood the entire question. But I think, looking at the 
$1.4 billion as the U.S. Forest Service budget, all State--I 
mean, actually, fire suppression costs are way more than that, 
because all States, locals have our own budgets.
    I think focusing dollars that are available on priority 
areas to do work ahead of time is a much wiser investment 
than----
    Mrs. Napolitano. Is that happening?
    Mr. Crapser. To some extent, but not as much as it should 
be.
    Mrs. Napolitano. And the reason, what do you think, 
personally?
    Mr. Crapser. I really don't know, ma'am. I wouldn't even 
hazard a guess. I think it is that when the--when there is 
smoke in the air and it is an emergency, we do what we have to 
do. When we are thinking out long periods of time, sometimes we 
don't.
    Mrs. Napolitano. So we are not looking at a futuristic way 
of being able to deal with some of these fires?
    Mr. Crapser. I think we haven't come to grips with how we 
manage our natural resources in this country.
    Mrs. Napolitano. Yes?
    Ms. Berry. Yes. If I could just add, I think that also--
that part of the reason for this escalating spending on 
suppression is that there is a disconnect between who is 
spending that money on suppression, and then who can make a 
difference in reducing the risk, whereas the local State 
governments that manage growth in the Wildland/Urban Interface 
can make those planning differences, and the spending for 
suppression comes later from a different agency. And so there 
is no sort of incentive to manage this growth, which drives 
these fire suppression costs in an effective way.
    Mrs. Napolitano. Thank you, Mr. Chair. I will have some 
questions for the record.
    The Chairman. The time of the gentlelady has expired. The 
Chair recognizes the gentlelady from South Dakota, Mrs. Noem.
    Mrs. Noem. Thank you, Mr. Chairman. And I think, Ms. Berry, 
you just made a very important statement that I hope we all 
recognize today, is that a lot of times those who are 
responsible to maintain the land simply aren't doing that. And 
who is bearing the costs of that are the local and State 
governments.
    And that is the true disconnect that we really do have, is 
that the true threat and the hurt is felt at home by these 
local and small governments who are bearing the cost of that. 
And seeing people who are losing their homes and their 
livelihoods and their businesses impacted are bearing the cost 
of that when the Federal Government doesn't step up and 
maintain the land that they are responsible to maintain because 
they have jurisdiction over it. If we are going to have Federal 
land in this country, then the Federal Government needs to 
maintain it. If they can no longer maintain that land and take 
care of it, then boy, give us the chance to do it and make 
decisions so that we can better manage it for the people who 
live in this country.
    Mr. Crapser, in your opinion, who makes better decisions 
for maintenance of land? Would it be the Federal Government, or 
would it be local and State and county organizations that are 
actually there and closer to the problems that we see every 
day?
    Mr. Crapser. Mr. Chairman, Congresswoman, I think the 
closer to the ground you can make decisions, the better 
decisions you have.
    Ms. Noem. I wholeheartedly agree. You know, Mr. Dice, I 
have a question for you. In South Dakota, which is the State 
that I am from, we have the Black Backed Woodpecker, which is 
being reviewed for potential listing on the Endangered Species 
Act. And so, opponents to land management techniques have 
pointed to some of the studies that have shown that dead and 
dying timber, which the Black Backed Woodpecker depends on for 
part of its habitat, is no greater wildlife threat risk than a 
healthy, thriving forest would be, and are building their case 
on leaving those dead and dying trees there for that habitat, 
but saying that it doesn't increase the risk to anybody, as far 
as wildlife potential. In your experience, could you weigh in 
on that and tell me if you think there is more risk with dead 
timber than there would be in a health forest?
    Mr. Dice. Yes, there is always more, ma'am. There is always 
more risk in a dead and dying forest than a green, healthy one. 
I mean it just--a lot of common sense will tell you that, that 
a dead tree is going to ignite a lot faster than a living one. 
Pretty simple.
    Mrs. Noem. So can you give me a little bit of insight into 
what happens when you get into those situations where wind 
throw would happen, and you would have dead and dying timber 
that has been blown over and lying on the ground, as well, how 
that changes the situation as well?
    Mr. Dice. Well, just more intense. They burn hotter, 
faster, through any kind of wind or--doesn't even take wind, 
they will create their own wind, that dead tree, dead fuels, 
create intense heat, and a lot more than actually a living 
forest would. And that is just pretty simple.
    Mrs. Noem. So, could--do you believe the Endangered Species 
Act could be improved if more opportunity was given to local 
and State governments to weigh in on some of the policies and 
procedures that are implemented in a lot of these areas?
    Mr. Dice. Yes. I think that the more eyes that can look at 
the situation, the better it would be. As Bill said, the 
local--the people on the ground locally are going to have a 
very good opinion about that.
    Mrs. Noem. Mr. Crapser, do you have--you say anecdotally 
you have the chance to talk about this as being a long-standing 
forester. But in looking at the Endangered Species Act, how it 
impacts our Federal lands, and how they are treated in dealing 
with some of the wildlife that is out there, do you believe the 
Endangered Species Act could be improved if we gave more input 
to local and State governments on how it is implemented?
    Mr. Crapser. Mr. Chairman, Congresswoman, yes, definitely. 
I think if you look at efforts across the country--I will use 
in my own State of Wyoming the work--even though it is not a 
listed species, the work our State government has done on sage 
grouse has gone far and beyond, and it has been a 
collaborative, cooperative effort that has really moved things 
forward, much better than a regulatory hammer approach.
    I think the other thing with the Endangered Species Act, 
sometimes we focus on single species and we end up with 
competing species, instead of really looking at what we really 
need out of the protection from the Act.
    Mrs. Noem. Thank you. I appreciate that. And that----
    The Chairman. Would the gentlelady yield?
    Mrs. Noem. I will.
    The Chairman. I just want to make an observation. Mrs. 
Napolitano brought up the issue of budgets. And Mr. Crapser had 
earlier made the observation of the lack of harvest. Now, keep 
in mind revenues from harvest go to the Federal Government for 
forest management. And Mr. Crapser made the observation, I 
think, that since the mid-1990s to now, that the harvest has 
been from 11 billion board feet down to roughly 1 billion board 
feet. The corresponding revenues in that time is from $2 
billion down to about $180 million. So you have a 90 percent 
reduction. Therefore, you do have budgetary problems. And one 
way to resolve that problem is to have more harvesting.
    So, I thank the gentlelady for yielding, and recognize the 
gentleman from Oregon, Mr. DeFazio.
    Mr. DeFazio. Thank you, Mr. Chairman. I remember being in 
this room back in 2002, when we had fires raging 10 years ago 
in the West. And I expressed at that point some impatience 
about the pace at which we were dealing with fuel reduction. We 
went through a couple-year process and ended up with HFRA, 
which I supported. In looking through the documentation here, 
it appears to me that HFRA has worked, that in fact, very few 
of these proposed thinning, fuel reduction thinning projects, 
have been litigated, a very small percentage. So, I am having a 
hard time understanding that the problem is with litigation, as 
opposed to budgets. Because I would observe that the proposed 
budget for the Forest Service is $312 million. Sounds like a 
lot of money.
    But in terms of what it costs per acre, how many acres are 
out there--I haven't seen the GAO update, but the numbers we 
had back then at the levels we were spending in 2002, which 
were a little bit lower than this, but not--about the same for 
the BLM, a little lower with Forest Service--were that we had 
about a 100-year backlog, you know, if we dealt with all of our 
critical areas in the forest, and starting prioritizing in the 
WUI and then moving further into the forest.
    As that changed, I just would ask perhaps for Mr. Crapser. 
I mean we are basically not even keeping up with the build-up 
of fuels, right, with the current budgets?
    Mr. Crapser. Mr. Chairman, Congressman, no, we are not 
keeping up with the backlog of work that can be done. And I 
think that is one reason why--and as I said earlier, I would be 
a very poor agency head if I said that I have enough money. I 
don't have enough money, I never have enough money. But I think 
we also have to be innovative and look at non-budget ways that 
we can get some of this work done, simply because I don't think 
there is enough money printed to get us to the--completely to 
catch up with the backlog.
    Mr. DeFazio. But if we do--and this has been a bone of 
contention with some of the environmental groups for me--but if 
we put some value on fuel reduction projects, i.e. allow, where 
practicable, the removal for biofuel potential and others, to 
reduce the impacts. But, I mean, these are, with the exception 
of the burning, which we have had some discussion of, but where 
we are doing some actual mechanical removal, they are labor 
intensive, correct? And, what, $300 an acre, probably?
    Mr. Crapser. Congressman, that would be--in most WUI areas, 
that would be very, very reasonable, $300 an acre.
    Mr. DeFazio. OK. So probably generally more than that.
    Mr. Crapser. Yes, sir.
    Mr. DeFazio. So, really, I mean, we do have here a 
budgetary problem. We are at $312 million. You know, and if you 
look at the backlog of acreage, I think we are talking about 65 
million acres that we feel need fuel reduction. Is that 
correct, on Forest Service----
    Mr. Crapser. Mr. Chairman, Congressman, I am not sure on 
the acreage. I think the point is, though, in my mind, if we 
can utilize stewardship contracting, we can utilize some of 
these other vehicles and get a value out of some of those 
materials, it offsets dollars needed.
    Mr. DeFazio. Absolutely. And I 100 percent agree with you 
there. There are some who have said to me, well, they fear that 
if we built some small dispersed plants, either to produce 
biodiesel, cellulosic ethanol, or to actually--you know, plants 
actually use the wood for generation of electricity, that we 
would become addicted to it, and then we would go back and 
harvest the healthy trees, which I find an absurd statement.
    Just one other point, which also goes back to those days, 
the gentleman from New Mexico said that these two fires that 
joined were both initially spotted as one-tree fires. I wonder 
why, if they were reported as one-tree fires, I thought the 
Forest Service was doing a lot more active and early 
suppression these days.
    Mr. Lopez. Mr. Chairman, Congressman, the reason that the 
Forest Service, in my opinion, did not act on it is because 
both fires started in the wilderness. And so, they were trying 
to clean out the wilderness, and that is why they allowed them 
to burn. But once they got large enough, and the winds changed, 
they blew down toward private property and populated areas, and 
that is what the basic modus operandi is now, is that if a fire 
starts in the wilderness, you allow it to try and clear out the 
brush and----
    Mr. DeFazio. Well, not in those--I thank you, but not in 
those conditions. I think that is a question--we don't have a 
Forest Service witness here today, but we had a couple of fires 
in Oregon, you know, back in the last decade which started as 
one-tree fires, which could have been suppressed, and we asked 
for an investigation, we held hearings, and my understanding 
was they had changed their policy. And to allow, you know, to 
pretend or to think that you are somehow going to get a low 
intensity fuel reduction in the kind of conditions you guys are 
experiencing down there with the drought is--would be 
irresponsible, if that is what they did. I would hope the 
Committee would inquire as to the reasons----
    The Chairman. Maybe--if the gentleman would yield--make the 
inquiry and we will follow up.
    Mr. DeFazio. OK.
    The Chairman. The time of the gentleman has expired. The 
Chair recognizes the gentleman from Pennsylvania, Mr. Thompson.
    Mr. Thompson. Well, thank you, Chairman. Thanks for holding 
this hearing. As someone who chairs the Agriculture 
Subcommittee on Forestry, and also someone who has spent about 
30 years as a State-certified firefighter, I have spent my 
share of days and nights in forest fires. This is a situation 
that is very important.
    And I actually want to zero in on where the conversation 
stopped, and really want to focus on one area of our national 
forests, and look at the implications of that, and that is 
wilderness areas. So the timing was perfect, in terms of what 
you teed up for a question. I appreciate it.
    I want to start with--let's start with Mr. Varela Lopez and 
then Mr. Crapser. I am curious, both of you. In your opinions, 
what impact do wilderness areas have on the increasing number 
of wildfires on Federal lands? And as a follow-up to that, 
wilderness appears to prevent access and categorically excludes 
the Forest Service from any kind of major management in the 
event of a fire catastrophe. Do you believe that this is an 
inherent problem on wilderness lands?
    Mr. Lopez. Mr. Chairman, Congressman, I certainly agree 
with you that not doing any active management in the wilderness 
areas is a problem. Because you have the unnatural fuels that 
are allowed to increase and when you have a fire, obviously, it 
is a lot hotter, in my opinion, than what it would be if the 
acreage was managed properly. So, yes, there is a certain 
impact.
    And I believe also that over the years I think you can 
probably actively manage it, but the policy has been that there 
is no active management in the wilderness area, even though 
under certain circumstances and conditions it is allowed.
    But, you know, obviously, all our water starts at the top 
of the watersheds. And if that is damaged, especially with the 
amount of trees that we have, and--like in New Mexico, you 
know, you have a lot of erosion problems, and money that just 
goes down the hole forever.
    Mr. Crapser. Mr. Chairman, Congressman, I think wilderness 
areas give us a unique challenge. Congressman DeFazio mentioned 
the single tree snags that were burning and then not put out. A 
lot of that happens in wilderness areas. You can tell it is 
kind of a--it is a problem for the Forest Service, because they 
change the name every year from let-it-burn policy to wildland 
fire use to good fire-bad fire to planned fire, non-fire.
    Probably the simplest way how States deal with the Forest 
Service and the BLM, our Federal partners, on it is fires that 
they don't actively suppress in the wilderness areas we 
consider exactly the same as prescribed fire. And our agreement 
with the Federal agencies is very clear, that if you have a 
prescribed fire that gets away from you, you pay the entire 
cost of suppression when it has to be put out, and we deal with 
those fires the same way.
    But it does give unique challenges, having especially small 
wilderness areas in mixed ownership.
    Mr. Thompson. Thank you. Mr. Dice, you know, my 
understanding is the Forest Service has some authority to 
manage wildfires in a wilderness area, but they are extremely 
limited in this capacity, and typically do not exercise that 
authority in the event of a major fire. Would you--based on 
your knowledge, would you agree with this? And, if so, you 
know, are you aware of what kinds of powers does the Forest 
Service have in the event of a wildfire in a wilderness area?
    Mr. Dice. Well, I--Congressman, I don't know, exactly. I do 
know that when we go to wildland fires in the wilderness acres, 
they are slow to get at, they are usually pretty remote, there 
are no roads, you can't use those. They are very hard to 
suppress. And many times we can't get the equipment in there 
that is needed. And so, they are just expensive.
    And so, sometimes activity--or actual suppression on them 
is hindered greatly because of that, those type of things. So--
--
    Mr. Thompson. Well--and for any of the panelists, I want to 
kind of follow up on the--on your response, Mr. Dice. You know, 
how does the management of fire risk in wilderness areas differ 
from the management of fire risk in non-wilderness areas? What 
are the differences that you observe?
    Mr. Dice. Mr. Chairman, Congressman, number one and 
foremost is they don't do any fuel treatments. There is no 
opportunity to do any type of fuel treatment in wilderness 
areas because, by de facto, they have their own management 
regime. So it does make things more problematic when you do 
start working on a fire. As Mr. Dice said, the remoteness 
restrictions on motorized type of equipment all add factors 
into the difficulty of dealing with fires in a wilderness area.
    Mr. Thompson. Thank you. Mr. Chairman, I see my time has 
expired.
    The Chairman. The time of the gentleman has expired. The 
Chair recognizes the gentleman from Arizona, Mr. Gosar.
    Dr. Gosar. Mr. Crapser, have you ever cut down a big tree 
that has been over, let's say, 150 years old?
    Mr. Crapser. Yes, sir. Hundreds of them.
    Dr. Gosar. Have you counted the rings?
    Mr. Crapser. Yes, sir.
    Dr. Gosar. Have you looked at the rings?
    Mr. Crapser. Yes, sir.
    Dr. Gosar. What do the rings tell you?
    Mr. Crapser. Congressman, the rings tell you the history of 
the tree, of drought, of moisture, of fire history.
    Dr. Gosar. And in those 150 years have we had changing 
patterns of our dynamics of climate?
    Mr. Crapser. Congressman, most--in my observation, most of 
it is--of tree growth and tree rings has been the micro-
climate, if you will, as far as where that tree is growing. I 
haven't tried to take like trees and look at them.
    Dr. Gosar. Well, they tell a tale. I am a science guy, too, 
like Mr. Holt was talking about. And it tells you a lot about 
history, about climates. And climates are dynamic. They change. 
I mean we are not a perfect universe, no matter what.
    Would you--I am also a health care professional. Would you 
agree that we are in a pandemic right now in our forests?
    Mr. Crapser. Yes, sir. I think we are in a forest health--
--
    Dr. Gosar. So it is not just about bark beetles, it is 
about cankers and blights.
    Mr. Crapser. Yes, sir.
    Dr. Gosar. Are you familiar with what transpired in the 
mid-1970s, just south of Wyoming in Vernal, Utah? Flaming 
Gorge?
    Mr. Crapser. No, sir.
    Dr. Gosar. Well, let me paint the picture. What ended up 
happening is we had bark beetle, we had blight, we had canker. 
And it destroyed everything. In fact, they ended up having to 
clear cut, because a lot of it was Ponderosa Pine. I really 
want people to go back there to go see and take a look at it, 
because it is a management style because of a special genetics 
of a tree. Ponderosa Pine don't like to be selectively cut, 
they like to be cleared and having open range to seed. Is that 
true?
    Mr. Crapser. Congressman, Lodgepole Pine that is 
specifically--that is definitely the case. Ponderosa Pine, it 
depends on the site.
    Dr. Gosar. And if I said Ponderosa Pine, I meant Lodgepole 
Pine, I am sorry, and Douglas Fir.
    Mr. Crapser. Lodgepole Pine is a----
    Dr. Gosar. Yes. Ponderosa Pine is a little bit different, 
because it is more of a--selective aspects.
    Ms. Alison, tell me about our mitigation efforts. Are we 
pretty good at mitigation?
    Ms. Berry. At mitigating fire risk?
    Dr. Gosar. No, no, no. At reclamation.
    Ms. Berry. At reclamation?
    Dr. Gosar. Yes. Are we pretty good at it?
    Ms. Berry. What do you mean by----
    Dr. Gosar. Taking care of a road and rehabilitating it, you 
know, rehabilitating a marsh land. Are we pretty good at it?
    Ms. Berry. Yes, we are.
    Dr. Gosar. How are we with soil that is sterilized? Are we 
good at it?
    Ms. Berry. Well----
    Dr. Gosar. The answer is no. I will just be real careful. I 
don't want it to go anywhere close to that. Because that is 
what we are doing right now. We are putting these intense loads 
of fire fuel, and we are burning it at such an intense heat 
that it is actually sterilizing soil. And that is the make-up 
that builds a healthy forest and grass lands.
    Mr. Lopez, are you familiar with the Forfry Initiative?
    Mr. Lopez. Mr. Congressman, yes, I am.
    Dr. Gosar. Is it--it seems to me like it is a collaborative 
working with environmentalists, the logging industry, cattlemen 
associations, government. And is there a reason that you see 
why we haven't been able to get it off the ground?
    Mr. Lopez. Mr. Chairman, Congressman, I believe that will 
come to pass here in the near future. There were a few hiccups 
along the way in making sure that everybody was on board. And I 
think that it is such a large initiative, that I believe that 
not all the pieces were put into place in a timely fashion to 
be able to start the project. But I believe it will happen. We 
have the same type of projects in New Mexico that are currently 
getting ready to start.
    Dr. Gosar. Well, I would like to go back and challenge that 
part of the process is the Forest Service. And when we are 
talking--Mr. Dice was talking about the finances here, you 
know, the Wallow fire in my district last year, the largest 
fire in Arizona history, we spent almost $400 million putting 
that fire out, and we lost 2.5 billion in assets. Those are 
assets that go back in royalties to our educational system. 
Boy, we are just a big loser all the way around. 
Environmentally we lost over half of the Spotted Owl nests and 
the population, just a disaster, absolute disaster.
    So, you know, when budgets--they are limited--I am also a 
businessman. There is a limited budget that we can work by, and 
this is a way that you actually have an increased revenue 
stream to utilize a natural resource properly.
    But part of the problem is can you, Mr. Crapser, tell me 
why the Forest Service took over 6 months to have a contract, 
when they should have known that they were going to have that a 
long time ago? Isn't that part of the Forest Service's problem, 
their ineptness with the bureaucracy?
    Mr. Crapser. Congressman, I think that is part of the 
problem. We--a past chief of the Forest Service talked about 
analysis paralysis. And I think they are still very subject to 
that.
    Dr. Gosar. And my time has expired.
    The Chairman. I thank the gentleman for his line of 
questioning. And I particularly appreciate the panelists here 
for your responses.
    As many times happens, a response will elicit another 
question. So I would ask all of you, if Members submit 
questions to you, that you respond in a very timely manner to 
those questions.
    So, once again, this issue, from at least my perspective, 
appears to have at least a commonality that people agree there 
is a problem. The challenge is always how you address that 
problem. And that was one of the reasons why we had this 
hearing specifically on how it relates to past practice of the 
Endangered Species Act.
    So, once again, thank you all very much for your testimony. 
If there is no further business to come before the Committee, 
the Committee stands adjourned.
    [Whereupon, at 11:55 a.m., the Committee was adjourned.]

                                 <all>

</pre></body></html>
